<html>
<title> - H.R. 5102, H.R. 5185 and H.R. 5513</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                  H.R. 5102, H.R. 5185 and H.R. 5513

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            October 10, 2002

                               __________

                           Serial No. 107-157

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

82-315              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 10, 2002.................................     1

Statement of Members:
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California........................................    27
        Prepared statement on H.R. 5185..........................    29
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement on H.R. 5513..........................     5
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado, prepared statement on H.R. 5102.........     2
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     6

Statement of Witnesses:
    Gioia, Tony, Camp Verde, Arizona.............................     9
        Prepared statement on H.R. 5513..........................    11
    Hamilton, Larry, Director, Fire and Aviation, Bureau of Land 
      Management, U.S. Department of the Interior................    29
        Prepared statement on H.R. 5102 and H.R. 5185............    31
    Resavage, Roy, President, Helicopter Association 
      International..............................................    34
        Prepared statement on H.R. 5102 and H.R. 5185............    36
    Ruskin, Fred, Manager, Yavapai Ranch Limited Partnership.....    12
        Prepared statement on H.R. 5513..........................    14
    Thompson, Tom L., Deputy Chief, National Forest System, U.S. 
      Department of Agriculture, statement on H.R. 5513..........     6
        Statement on H.R. 5102 and H.R. 5185.....................    32
        Prepared statement on H.R. 5102, H.R. 5185 and H.R. 5513.     7


 LEGISLATIVE HEARING ON H.R. 5513 TO AUTHORIZE AND DIRECT THE EXCHANGE 
   OF CERTAIN LAND IN THE STATE OF ARIZONA BETWEEN THE SECRETARY OF 
AGRICULTURE AND YAVAPAI RANCH LIMITED PARTNERSHIP; H.R. 5185 TO REMOVE 
A RESTRICTION ON THE AUTHORITY OF THE SECRETARY OF AGRICULTURE AND THE 
  SECRETARY OF THE INTERIOR TO ENTER INTO AGREEMENTS WITH ANY FEDERAL 
 AGENCY TO ACQUIRE GOODS AND SERVICES DIRECTLY RELATED TO IMPROVING OR 
USING THE WILDFIRE FIGHTING CAPABILITY OF THOSE AGENCIES; AND H.R. 5102 
TO EXPEDITE THE PROCESS BY WHICH THE SECRETARY OF THE INTERIOR AND THE 
 SECRETARY OF AGRICULTURE MAY UTILIZE AIRCRAFT TO FIGHT WILDFIRES, AND 
                          FOR OTHER PURPOSES.

                              ----------                              


                       Thursday, October 10, 2002

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 12:30 p.m., in 
room 1334, Longworth House Office Building, Hon. J.D. Hayworth 
presiding.
    Mr. Hayworth. The Subcommittee on Forests and Forest Health 
will come to order. The Subcommittee is meeting today to hear 
testimony on H.R. 5513, the Yavapai Ranchland Exchange 
Refinement Act of 2002, which I am privileged to sponsor; H.R. 
5185, the Wildfire Response Enhancement Act, sponsored by Mr. 
Gallegly and Mr. Gibbons; and H.R. 5102, the Wildfire Response 
Act of 2002, sponsored by Mr. Hefley.
    The Chair would pose at this time again to thank all of you 
rolling with the changes in today's schedule. The Chair 
appreciates your willingness to stay, and I am cognizant of the 
fact that it changes some schedules and again we thank you very 
much.
    At this point, I would ask unanimous consent that 
Representatives Gallegly, Gibbons, and Flake have permission to 
sit on the dais and participate in the hearing. There is nobody 
here to object, so guess what? It is so ordered.
    Due to the postponement, Mr. Hefley will not be able to 
make today's hearing, but he has asked that his statement be 
submitted into the record and, without objection, that is so 
ordered.
    [The prepared statement of Mr. Hefley follows:]

 Statement of Hon. Joel Hefley, a Representative in Congress form the 
                           State of Colorado

    Mr. Chairman, thank you for scheduling this hearing today on my 
bill, H.R. 5102.
    The purpose of my bill is simple. As things currently stand, when 
fighting forest fires the Department of Interior and the U.S. Forest 
Service are required to comply with the dictates of the Economy Act of 
1931. That law, intended to insure that the federal government does not 
compete with the private sector, requires that government agencies 
exhaust all commercial vendors of such things as aviation services 
before turning to military assets. My bill would allow these federal 
agencies to waive this requirement for fighting wildfires and submit to 
Congress the reasons for exercising the exception.
    In general, the present policy has worked well. It has freed the 
government from the need to maintain an aircraft fleet solely for 
firefighting and held down costs. I have no argument with its overall 
intent. My argument, and the rationale for H.R. 5102, is that in times 
of emergency these federal agencies should have the flexibility to 
access all available materiel to respond to a disaster, such as a 
forest fire, regardless of whether the materiel is civilian or 
military.
    My interest in this subject was prompted by the recent Hayman fire 
in Colorado. That Hefley fire was discovered at approximately 4 p.m. on 
June 8. The Forest Service said it responded aggressively to the blaze 
within 45 minutes. That response included four aerial tankers.
    Approximately 50 miles away, in Colorado Springs, two C-130 cargo 
planes were parked on the runway at Peterson Air Force Base. Attached 
to the 302nd Airlift Wing, U.S. Air Force Reserve, the planes and their 
crews were trained and equipped to drop flame retardant on forest 
fires. Indeed, the crews had, in past years, bemoaned the fact they 
were often among the last units called up to fight forest fires in the 
Pacific Northwest and California. The base was also equipped with a 
number of Modular Airborne Fire Fighting Systems, or MAFFS units.
    As the fire grew, my district office in Colorado Springs was 
inundated with calls from constituents asking why the C-130s were still 
parked on the runway at Peterson and not in the air fighting fires. The 
short answer was that the Forest Service had judged they were not 
needed at the time. At the height of the Haman and other fires in 
Colorado last June, the Forest Service had 23 tankers in the air. The 
longer answer is that the Peterson MIFFS units lacked the bladders 
needed to haul retardant. Eventually, the tankers were called up, the 
bladders were installed and the C-130s joined the effort on Friday, 
June 14
    Since June, I have learned to my satisfaction that the use of the 
C-130s at Peterson were not an issue in the air coverage of the Hayman 
fire. But while researching the issue, Forest Service personnel 
admitted they were looking for a Type 3 Skymaster helicopter to aid in 
another fire near Grand Junction. My office offered its assistance with 
the military but were told that procedures required that civilian 
vendors be exhausted first.
    At a meeting with representatives of the Forest Service's aviation 
section, Tony Kern, National Aviation Officer, admitted that it was 
conceivable that fire fighters might, at times, run into a situation 
where being able to access available military assets might be useful in 
containing a wildfire at an early stage, before it spread. It should be 
noted that virtually of the Haman fire almost 138,000 acres burned on 
the second day.
    Since introducing this legislation on July 11, I have heard from a 
number of organizations representing the aerial contractors involved in 
forest fire fighting. I have heard there is no problem. That if there 
is a problem, it can be handled with existing procedures. Finally, I 
have read quotes in an Arizona newspaper that enacting my bill would be 
devastating to this industry. I have even heard that this bill was a 
plot by the military to take over all forest fire fighting operations 
and drive private industry out of business.
    After introducing this bill, I learned of a second bill, H.R. 5185, 
introduced by my friend and colleague, Mr. Gallegly of California. His 
original bill, introduced in 1993, was prompted by a similar situation 
in Ventura County, California. In researching my bill and this 
statement, our staffs compared notes and found that the arguments 
raised against our 2002 bills were identical to those raised against 
Mr. Gallegy's bill in 1993.
    Mr. Chairman, since becoming involved in the forest fire fighting 
issues, I have become impressed by the similarities between fighting 
fires and fighting a war. One of the most important tenets of war is to 
bring all available force to bear at the outset. ``Git thar fustest 
with the mostest.'' Another is to direct all efforts toward your end 
objective. My bill seeks to give federal agencies the flexibility to do 
that. If we can stop a Hayman-type fire in its initial stages with 
civilian aircraft, we should do that. If we can stop the same fire in 
its initial stages with military aircraft, we should do that. The 
objective is to contain and stop the fire and protect public lives, 
land and property. It is not to be chained to procedures or insure 
contracts. As things stand now, federal agencies are in the position of 
an emergency medical technician who comes across as accident victim 
laying on the road in front of him. The EMT has all the training needed 
to treat the accident victim but procedures require the EMT to call 9-
1-1 and wait for an ambulance to arrive. That would be absurd. The 
objective is to treat the victim and save his life ... and the 
objective here is contain and stop the fire and protect public lives, 
property and land.
                                 ______
                                 

   STATEMENT OF THE HON. J.D. HAYWORTH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Hayworth. While we await the arrival of the ranking 
minority member, I would take advantage of the opportunity to 
offer my opening statement on the legislation that I have 
introduced.
    Congressman Bob Stump and I have introduced the bill, H.R. 
5513, together with Congressman Flake, because it will achieve 
several important goals. First, it will consolidate 110 square 
miles of land at the northern tip of the Prescott National 
Forest, or some would say in our neck of the woods Prescott 
National Forest, into solid Forest Service ownership.
    This area on the Yavapai Ranch contains beautiful high-
elevation ponderosa pine forest land, part of the upper 
watershed of the Verde River, and a large area of critical 
habitat for prong-horned antelope. It is also adjacent to the 
Juniper Mesa Wilderness Area.
    Both the Forest Service and the Arizona Department of Game 
and Fish believe the land consolidation is important to meet 
long-term needs for the protection of wildlife habitat and 
outdoor recreation. And I would stress they have reviewed the 
lands to be exchanged and feel that the lands the Forest 
Service is acquiring are far more valuable for wildlife and 
recreation than the lands the Forest Service is giving up.
    This exchange will also convey lands to the communities of 
Williams and Flagstaff into six youth summer camps for their 
long-term use. There has not been a time in recent memory that 
I have not been to Flagstaff and haven't heard from the mayor 
and city council members about the urgency of this exchange 
from their vantage point.
    Now, we have heard from some residents of Arizona and from 
outside organizations that this land exchange should be 
processed through normal administrative procedures. However, 
when we asked the Forest Service about the timeframe of the 
administrative change, we would told that it would likely take 
7 to 8 years, if it were accomplished at all.
    The cities of Flagstaff and Williams in the Verde Valley, 
as well as the youth camps involved in the exchange, simply do 
not want to have to wait so long for what at best would be an 
uncertain outcome, given the appeals and lawsuits that seem to 
accompany almost everything our Forest Service has done in 
recent memory.
    So it seems to me we have two choices here. Either we 
legislate this land exchange so that it will be completed in 
the next year or so or we do nothing and watch the Yavapai 
Ranch be subdivided and developed, and the communities of 
Flagstaff, Williams, and Camp Verde and the summer camps lose 
the opportunity to acquire the lands they need for their future 
needs. The Forest Service also loses an opportunity to 
consolidate a major parcel of land on the Prescott National 
Forest. I think the choice is fairly obvious.
    Other benefits of this legislation are numerous. It will 
protect water flows in the Verde Valley, and the bill requires 
that the lands the Yavapai Ranch acquires in the Cottonwood, 
Clarkdale and Camp Verde area be subject to strict water use 
limitations, including a prohibition on the construction of 
golf courses.
    To my knowledge, the water usage restrictions we are 
imposing are precedent-setting in nature and, in my opinion, 
should be viewed as a very progressive development. Of over 
50,000 acres of private land in the Verde Valley and the 
immediate surrounding tributary drainages, the 3,000 acres 
covered by our water use restrictions are the only acres to 
have such restrictions on them.
    So I am somewhat puzzled by those who say this bill will 
adversely impact water use. Quite to the contrary, by 
protecting large acreages in the head waters of the Verde River 
from subdivision development and by placing water use 
restrictions on the national forest lands that become private, 
this bill should have a major positive impact on future water 
use.
    H.R. 5513, while introduced late in the session is anything 
but a rush job. In fact, officials of the Prescott National 
Forest and Yavapai Ranch have been working on the details of 
proposal for more than 3 years now and have been working 
closely with my staff and Congressman Stump's staff for most of 
that time as well.
    In addition, the communities of Flagstaff, Williams, 
Cottonwood, Clarkdale and Camp Verde have held numerous public 
meetings on the proposal, and there have also been many public 
workshops and other meetings sponsored by environmental groups 
and others where the Forest Service has explained the proposal 
to the public. So this has been a very open process, with major 
newspaper coverage as well.
    There is also a long list of organizations, local 
governments, and other groups that support H.R. 5513, including 
the city councils of Flagstaff, Williams, Camp Verde, 
Cottonwood and Clarkdale, the Yavapai County Board of 
Supervisors, the Salt River Project, Arizona Game and Fish 
Department, Flagstaff Chamber of Commerce, Greater Flagstaff 
Economic Council, Williams Chamber of Commerce, Camp Verde 
Chamber of Commerce, Cottonwood Chamber of Commerce, Grand 
Canyon Trust, Sedona-Verde Valley Realtors, Wildlife 
Conservation Council, Arizona Antelope Foundation, and last but 
not least, the Arizona Mule Deer Association.
    I ask unanimous consent to insert letters of endorsement 
from these organizations into the record. Hearing no objection, 
it is so ordered.
    [The information has been retained in the Committee's 
official files.]
    [The prepared statement of Mr. Hayworth follows:]

Statement of Hon. J.D. Hayworth, a Representative in Congress from the 
                            State of Arizona

    Congressman Bob Stump and I have introduced this bill, H.R. 5513, 
together with Congressman Flake, because it will achieve several 
important goals.
    First, it will consolidate 110 square miles of land at the northern 
tip of the Prescott National Forest into solid Forest Service 
ownership. This area on the Yavapai Ranch contains beautiful high 
elevation ponderosa pine forestland, part of the upper watershed of the 
Verde River, and a large area of critical habitat for pronghorn 
antelope. It is also adjacent to the Juniper Mesa Wilderness Area. Both 
the Forest Service and the Arizona Department of Game and Fish believe 
the land consolidation is important to meet long term needs for the 
protection of wildlife habitat and outdoor recreation''.and''.I would 
stress, they have reviewed the lands to be exchanged and feel that the 
lands the Forest Service is acquiring are far more valuable for 
wildlife and recreation than the lands the Forest Service is giving up.
    This exchange will also convey lands to the communities of Williams 
and Flagstaff, and to 6 children's summer camps for their long term 
use. There has not been a time in recent memory that I have been to 
Flagstaff and haven't heard from the Mayor and City Council members 
about the urgency of this exchange.
    Now, we have heard from some residents of Arizona, and from some 
outside organizations, that this land exchange should be processed 
through normal administrative procedures. However, when we asked the 
Forest Service about the time-frame of an administrative exchange, we 
were told that it would likely take 7-8 years, if it were accomplished 
at all. The cities of Flagstaff, Williams, and the Verde Valley, as 
well as the youth camps involved in the exchange simply do not want to 
have to wait so long for what would be at best an uncertain outcome, 
given the appeals and lawsuits that seem to accompany almost everything 
the Forest Service does recently.
    So, it seems to me that we have two choices here. Either we 
legislate this land exchange so that it will be completed in the next 
year or so, or we do nothing and watch the Yavapai Ranch be subdivided 
and developed, and the communities of Flagstaff, Williams and Camp 
Verde, and the summer camps, lose the opportunity to acquire the lands 
they need for their future needs. The Forest Service also loses an 
opportunity to consolidate a major parcel of land on the Prescott 
National Forest. I think the choice is clear.
    Other benefits of this legislation are numerous. It will protect 
water flows in the Verde Valley, and the bill requires that the lands 
the Yavapai Ranch acquires in Cottonwood /Clarkdale and Camp Verde be 
subject to strict water use limitations, including a prohibition on the 
construction of golf courses. To my knowledge, the water use 
restrictions we are imposing are precedent-setting in nature, and in my 
opinion, should be viewed as a very progressive development. Of over 
50,000 acres of private land in the Verde Valley and immediate 
surrounding tributary drainages, the 3,000 acres covered by our water 
use restrictions are the ONLY acres to have such restrictions on them. 
So, I am somewhat puzzled by those who say this bill will adversely 
impact water use. Quite to the contrary, by protecting large acreage in 
the headwaters of the Verde River from subdivision and development, and 
by placing water use restrictions on the National Forest lands that 
become private, this bill should have a major positive impact on future 
water use.
    H.R. 5513, while introduced late is the session, is anything but a 
rush job. In fact, officials of the Prescott National Forest and the 
Yavapai Ranch have been working on the details of the proposal for more 
than 3 years now, and have been working closely with my staff, and 
Congressman Stump's staff, for most of that time. In addition, the 
communities of Flagstaff, Williams, Cottonwood, Clarkdale and Camp 
Verde have held numerous public meetings on the proposal, and there 
have also been many public workshops and other meetings, sponsored by 
environmental and others, where the Forest Service has explained the 
proposal to the public. So this has been a very open process, with 
major newspaper coverage as well.
    There is also a long list of organizations, local governments and 
other groups that support H.R. 5513, including the city councils of 
Flagstaff, Williams, Camp Verde, Cottonwood, and Clarkdale, the Yavapai 
County Board of Supervisors, Salt River Project, Arizona Game and Fish 
Department,
    Flagstaff Chamber of Commerce, Greater Flagstaff Economic Council, 
Williams Chamber of Commerce, Camp Verde Chamber of Commerce, 
Cottonwood Chamber of Commerce, Grand Canyon Trust, Sedona-Verde Valley 
Realtors, Wildlife Conservation Council, Arizona Antelope Foundation, 
and the Arizona Mule Deer Association.
    I ask unanimous consent to insert letters of endorsement from these 
organizations into the record.
                                 ______
                                 
    Mr. Hayworth. The Chair now welcomes our friend from 
Washington State, the ranking minority member on the 
Subcommittee, Mr. Inslee, for any opening statements he might 
have.

STATEMENT OF THE HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Inslee. Following that brilliance, I can't top it, so I 
am going to just look forward to the testimony. Thank you, Mr. 
Chair.
    Mr. Hayworth. Well, thank you to the gentleman from 
Washington State. We thank you for being here and the chance to 
hear from our witnesses.
    Now, I would like to introduce witnesses for our first 
bill, H.R. 5513, which I have discussed. On panel one, we have 
Mr. Tom Thompson, Deputy Chief, National Forest System, U.S. 
Department of Agriculture; Mr. Tony Gioia, Verde Valley, 
Arizona; and Mr. Fred Ruskin, Manager, Yavapai Ranch Limited 
Partnership.
    I would like to take this opportunity to remind the 
witnesses that under our Committee rules you must limit your 
oral statements to 5 minutes, but your entire statement will 
appear in the record.
    It is my privilege now to welcome and recognize Mr. 
Thompson for his opening remarks. Welcome, sir.

   STATEMENT OF TOM THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
SYSTEM, FOREST SERVICE, UNITED STATES DEPARTMENT OF AGRICULTURE 
                          ON H.R. 5513

    Mr. Thompson. Thank you, Mr. Chairman, for this opportunity 
to appear before you today. I am Tom Thompson, Deputy Chief of 
the National Forest System, and I will present the 
administration's views on H.R. 5513, the Yavapai Ranch Land 
Exchange Refinement Act of 2002.
    The administration supports the concept of a land exchange 
with the Yavapai Ranch and has worked for a number of years to 
craft administrative and legislative options to arrive at a 
mutually beneficial exchange of approximately 55,000 acres of 
Federal and non-Federal lands.
    An exchange offers substantial benefits to both parties and 
the public. The forests would benefit from simplified boundary 
management and reduced administrative costs and acquisition of 
lands adjacent to the Juniper Mesa Wilderness, which will have 
significant forest, wildlife, and recreation values. The public 
would benefit from the exchange of land for commercial and 
residential growth and for community services. Overall, this 
exchange could be beneficial in the public interest.
    The administration will support this legislation if a 
crucial change is made to the land valuation section of the 
bill, Section 5(b)(3)(B)(i)(3). This provision requires the 
appraiser to diminish the value of the Federal lands to the 
Camp Verde and Cottonwood declarations entered into between the 
Yavapai Ranch and the Salt River Project.
    These declarations purport to restrict the use of water on 
several Federal parcels and were negotiated without Federal 
participation. The declarations' net effect on the value of the 
Federal lands involved in the exchange would be substantially 
negative.
    For example, the typical number of units allowed for 
residential purposes based on current zoning and market-based 
indicators regarding the development of Federal parcels 
indicates a range of four to six units per acre, whereas the 
declarations would allow only one residential unit for two 
acres.
    This devaluation would result in the transfer of far more 
Federal land to the owners of Yavapai Ranch and its related 
limited liability corporation than would otherwise occur if the 
market value of the Federal estate were fully and fairly 
valued. As a result, the public would not receive fair value 
for this transfer of public lands and would be irretrievably 
damaged by this section. In addition, the administration is 
concerned with the precedent that would be set by this bill 
with regard to future management of private lands transferring 
into Federal ownership.
    While the Forest Service has worked with the Yavapai Ranch 
to craft language that gives the Federal land managers more 
authority to manage the land for public benefit, land 
management will not be tied directly to the forest planning 
process. This may foreclose future public participation and 
management that would otherwise be available to the public and 
the Forest Service through that process.
    Although this legislative proposal deviates somewhat from 
our standard administrative process, except for the proposed 
devaluing of Federal lands affected by declarations, there are 
adequate safeguards in this proposal to ensure that the 
exchange will be of equal value and complement the involved 
forest lands and resource management plans and overall is in 
the public interest.
    This concludes my statement. I would be happy to answer any 
questions which you might have.
    [The prepared statement of Mr. Thompson follows:]

Statement of Tom Thompson, Deputy Chief, National Forest System, Forest 
                Service, U.S. Department Of Agriculture

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to appear before you today. I am Tom 
Thompson, Deputy Chief for National Forest System. With me today is 
Jerry Williams, Director of Fire and Aviation. I would like to present 
the Administration's views on H.R. 5102--the Wildfire Response Act of 
2002, H.R. 5185--the Wildfire Response Enhancement Act, and H.R. 5513--
the Yavapai Ranch Land Exchange Refinement Act of 2002.
    Before discussing these bills I would like to take a few moments to 
update you on the status of our aviation program. As you are well 
aware, this has been an unusual fire season. Not only have we seen a 
dramatic increase in fire intensity and loss of resources, but because 
of the loss of human life, this has been a tragic year for our aviation 
firefighting program.
    The United States Department of Agriculture Forest Service and the 
Department of the Interior administer a challenging aviation program to 
support the national firefighting effort. We contract for 44 large 
airtankers, over 100 exclusive use helicopters, and nearly 300 more 
``call when needed'' helicopters. These aircraft are flown by highly 
professional pilots and form the backbone of our airborne resources and 
are more than adequate to meet our needs during a normal fire season.
    However, the meaning of a ``normal'' fire season has changed with 
the conditions of the forests, and in both 2000 and 2002 the military 
provided a critical surge capacity. Occasionally, we may need to call 
upon these resources under time sensitive conditions to meet urgent 
requirements.
    Chief Dale Bosworth and Kathleen Clarke, Director of the BLM, 
decided we needed to step back and get an objective, outside view of 
our program so they jointly commissioned a blue ribbon fact-finding 
panel to determine the adequacy of our current aviation program.
    This fact-finding panel includes some of the best minds in the fire 
and aviation community. Included are a former Chairman of the NTSB 
(National Transportation Safety Board), the State Forester of Texas, 
and the previous Director of the Transportation Safety Board of Canada.
    The panel is expected to issue its report by this November. The 
report is expected to identify strengths, weaknesses, and failpoints 
and provide information in five areas: safety, operational 
effectiveness, costs, sustainability, and strategic guidance.
    Using information from this comprehensive report, both Agencies 
will be in a much better position to meet the complex short and long 
term challenges of our firefighting and aviation program. We will share 
the panel's findings, and our proposed actions, with you when they are 
available.

H.R. 5102 - The Wildfire Response Act of 2002 and H.R. 5185--Wildfire 
        Response Enhancement Act
    As you are well aware, the 2002 fire season was one of the most 
devastating seasons in recent memory. Not only have we seen a dramatic 
increase in fire intensity and loss of resources, but because of the 
loss of human life, this has been a tragic year for our aviation 
firefighting program. I want to thank the Committee for its support of 
our ongoing efforts to continuously improve our wildland firefighting 
capabilities.
    I now turn to H.R. 5102, which would give the Secretaries of 
Agriculture and Interior expedited authority to utilize military 
aircraft and attendant personnel to fight wildfires without first 
comparing costs of procuring the same services from a commercial 
enterprise as currently required by the Economy Act, and H.R. 5185, 
legislation that is somewhat broader than H.R. 5102, which would give 
us the option to use military resources without making the 
determination that commercial sources were unavailable.
    We appreciate the Committee's desire to ensure the Department is 
vested with the flexibility needed to access cost-effective quality 
sources in a timely manner, including in emergency situations. We 
believe that sufficient flexibility currently exists under the Economy 
Act to achieve the objectives of this legislation and, for this reason, 
cannot support the legislative changes proposed by these bills.

H.R. 5513 - the Yavapai Ranch Land Exchange Refinement Act of 2002
    The Administration supports the concept of a land exchange with the 
Yavapai Ranch and has worked for a number of years to craft 
administrative and legislative options to arrive at a mutually 
beneficial exchange of approximately 55,000 acres of federal and non-
federal lands.
    An exchange offers substantial benefits to both parties and the 
public. The Forest would benefit from simplified boundary management 
and reduced administrative costs and the acquisition of lands adjacent 
to the Juniper Mesa Wilderness, which have significant forest, 
wildlife, and recreation values. The public would benefit from the 
addition of land for commercial and residential growth and for 
community services. Overall, this exchange could be beneficial and in 
the public interest.
    The Administration will support this legislation if a crucial 
change is made to the land valuation section of the bill. Section 
5(b)(3)(B)(i)(III) requires the appraiser to diminish the value of the 
federal lands due to the Camp Verde and Cottonwood declarations entered 
into between the Yavapai Ranch and the Salt River Project.
    These declarations purport to restrict the use of water on several 
federal parcels and were negotiated without federal participation. The 
declarations'' net effect on the value of the federal lands involved in 
the exchange would be substantially negative. For example, the typical 
number of units allowed for residential purposes based on current 
zoning and market-based indicators regarding the development of the 
Federals parcel indicates a range from 4 to 6 units per acre, whereas 
the declarations would allow only one residential unit for two acres.
    This devaluation would result in the transfer of far more federal 
land to the owners of the Yavapai Ranch and its related limited 
liability corporation than would otherwise occur if the market value of 
the federal estate were fully and fairly valued. As a result, the 
public would not receive fair value for this transfer of public lands 
and would be irretrievably damaged by this section.
    In addition, the Administration is concerned with the precedent 
that would be set by this bill with regard to the future management of 
private lands transferring into federal ownership. While the Forest 
Service has worked with the Yavapai Ranch to craft language that gives 
federal land managers more authority to manage the land for the public 
benefit, land management will not be tied directly to the forest 
planning process. This may foreclose future public participation and 
management actions that would otherwise be available to the public and 
Forest Service through that process.
    Although this legislative proposal deviates somewhat from our 
standard administrative process, except for the proposed, ``devaluing 
of the federal lands affected by the Declarations,'' there are adequate 
safeguards in this proposal to ensure that the exchange will be of 
equal value and complement the involved Forest lands and resource 
management plans, and overall, is in the public interest.
    This concludes my statement. I would be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Hayworth. Mr. Thompson, we thank you for that opening 
statement.
    The Chair would also welcome the gentleman from California 
and the gentlelady from Minnesota to the dais and we thank you 
for that.
    The Chair should also issue an apology to my friend from 
the Verde Valley.
    Tony, I believe I mispronounced your last name. It is 
Gioia, right?
    Mr. Gioia. That happens all the time.
    Mr. Hayworth. Well, forgive me for that. I don't know why I 
transposed an ``l'' in there, but, Tony, we welcome you here 
today and look forward to your testimony. You are now 
recognized for 5 minutes.

         STATEMENT OF TONY GIOIA, VERDE VALLEY, ARIZONA

    Mr. Gioia. I appreciate that. Good morning, Mr. Chairman, 
members of the Committee. Thank you for allowing me the 
opportunity to testify against H.R. 5513, the proposed Yavapai 
Ranch Land Exchange.
    My name is Tony Gioia. I am Vice Mayor of the Town of Camp 
Verde, Arizona. Today, I speak as a private citizen 
representing thousands of concerned residents and a number of 
elected officials in the Verde Valley.
    I am deeply involved in water supply issues in my region. I 
am co-chairman of the Yavapai County Water Advisory Board and 
Chair of the Middle Verde River Planning Committee, a group 
formed to implement the Arizona Department of Water Resources 
Rural Watershed Initiative. I also participate in many other 
planning intergovernmental entities.
    I have with me copies of letters right here sent to the 
Arizona delegation and other Members of Congress from citizens 
and elected officials in the Verde Valley who are opposed to 
the trading away of these public lands in our area. I also have 
a large number of petitions signed to that effect, along with a 
media survey which shows 94 percent of the respondents opposed 
the Verde portions of the trade.
    In 1998, citizens in the Verde Valley began to hear about a 
land exchange proposed that would privatize national forest 
lands near the towns of Camp Verde, Clarkdale, and Cottonwood. 
When we inquired with both the Forest Service and the 
proponent, Mr. Ruskin, we learned that the exchange would not 
go through the normal agency process, but through legislation. 
The bill has since been put together by Mr. Ruskin's lobbyist 
and negotiated with a Member of Congress who does not represent 
our particular district.
    Of the 20,000-plus acres of land Mr. Ruskin would get in 
the trade, he would receive more than 3,000 of acres of 
national forest land in the Verde Valley for residential and 
commercial development. In the Camp Verde area alone, there 
have already been thousands of acres of private land that 
remain undeveloped. We are faced with a crisis over ensuring 
sustainable growth on the existing land base and this project 
would only exacerbate that difficulty.
    Water supply is an extremely serious problem in the Verde 
Valley, where increased development has over-taxed groundwater 
supplies and dried up many residential wells. The Verde Valley 
is also engaged in a legal battle with Salt River Project over 
surface water supplies.
    Water supply and water quality are closely linked, so we 
also face such issues as arsenic concentration, E. coli 
contamination, and other threats to a safe water supply. Like 
much of the arid West, our towns are having to look far afield 
just to find water to sustain present development and are even 
considering projects to bring Colorado River water by pipeline 
from perhaps hundreds of miles away. It has been done before.
    The U.S. Geological Survey recently released a fact sheet 
on the hydrogeology of the Verde River watershed as part of an 
investigation under the Rural Watershed Initiative. This paper, 
submitted to the record along with other materials on water, 
acknowledges that the present and water situation in our valley 
is largely unknown. It poses seven fundamental questions that 
must be answered concerning our hydrogeologic system, including 
questions regarding recharge, flow boundaries, sources of base 
flow, and the effects of human water use now and in the future.
    The Verde Valley parcels that would go to Mr. Ruskin sit on 
top of what is called the Verde Fault, from which water is 
already being drawn by the Camp Verde Water Company and the 
Cottonwood Waterworks. As a further indication of our lack of 
certainly about water supply, it is believed that the Fault in 
some cases acts as a dam and in other cases a pipeline for 
groundwater flow. In any case, evidence suggests that 
groundwater recharge is insufficient to meet existing needs in 
the area.
    Another basis for so many citizens' opposition to this 
proposal has been the circumvention of the National 
Environmental Policy Act. We badly need the environmental 
analysis that comes with NEPA to understand the potential 
impacts on water supply and all of the environmental 
consequences to the vast area of the exchange.
    The aspect of NEPA that would be especially worthwhile in 
this case is the requirement that alternatives for a project be 
considered. No one disputes the benefits of consolidating 
public ownership in the checkerboard lands of the Prescott 
National Forest, but there is substantial controversy over 
almost every other aspect of the trade.
    Surely, there are alternatives that could provide some of 
the public benefit of this exchange and also profit Mr. Ruskin. 
Instead, we are offered an all-or-nothing proposition, with 
potentially devastating impacts to our community.
    In conclusion, we ask, as we have for 4 years, that the 
exchange go through only the administrative process and in 
pursuance of the public interest above all else. Should the 
legislation proceed, we implore you, remove from this proposal 
all national forest lands in the Verde Valley.
    Thank you very much.
    [The prepared statement of Mr. Gioia follows:]
    [Attachments to Mr. Gioia's statement have been retained in 
the Committee's official files.]

         Statement of Tony Gioia, Resident, Camp Verde, Arizona

    Good morning, Mr. Chairman and members of the committee. Thank you 
for allowing me the opportunity to testify against HR 5513, the 
proposed Yavapai Ranch Land Exchange.
    My name is Tony Gioia. I am vice-mayor of the town of Camp Verde, 
Arizona. Today I speak as a private citizen, representing thousands of 
concerned residents and a number of elected officials in the Verde 
Valley. I am deeply involved in water supply issues in my region. I am 
Co-chair of the Yavapai County Water Advisory Board and Chair of the 
Middle Verde River Planning Committee, a group formed to implement the 
Arizona Department of Water Resources Rural Watershed Initiative. I 
also participate in many other planning entities.
    In 1998, citizens in the Verde Valley began to hear about a land 
exchange proposal that would privatize national forest land near the 
towns of Camp Verde, Clarkdale, and Cottonwood. When we inquired with 
both the Forest Service and the proponent, Mr. Ruskin, we learned that 
the exchange would not go through the normal agency process, but 
through legislation. The bill has since been put together by Mr. 
Ruskin's lobbyist and negotiated with a member of Congress who does not 
even represent our district.
    Of the 20,000+ acres of land Mr. Ruskin would get in the trade, he 
would receive more than 3,000 acres of national forest land in the 
Verde Valley for residential and commercial development. In the Camp 
Verde area alone, there are already thousands of acres of private land 
that remain undeveloped. We are faced with a crisis over ensuring 
sustainable growth on the existing land base, and this project would 
only exacerbate that difficulty.
    Water supply is an extremely serious problem in the Verde Valley, 
where increased development has overtaxed groundwater supplies and 
dried up many residential wells. The Verde Valley is also engaged in a 
legal battle with the Salt River Project over surface water supplies. 
Water supply and water quality are closely linked, so we also face such 
issues as arsenic concentration, e-coli contamination, and other 
threats to a safe water supply. Like much of the arid West, our towns 
are having to look far afield just to find water to sustain present 
development and are even considering projects to bring Colorado River 
water by pipeline from perhaps hundreds of miles away.
    The US Geological Survey recently released a fact sheet on the 
hydrogeology of the Verde River watershed as part of an investigation 
under the Rural Watershed Initiative. This paper (submitted to the 
record along with other materials on water) acknowledges that the 
present and future water situation in our valley is largely unknown. It 
poses seven fundamental questions that must be answered concerning our 
hydrogeologic system, including questions regarding recharge, flow 
boundaries, sources of base flow, and the effects of human water use 
now and in the future.
    The Verde Valley parcels that would go to Mr. Ruskin sit on top of 
what is called the Verde Fault, from which water is already being drawn 
by Camp Verde Water Company and the Cottonwood Waterworks. As a further 
indication of our lack of certainty about water supply, it is believed 
that the Fault in some cases acts as a dam and in other cases a 
``pipeline'' for groundwater flow. In any case, evidence suggests that 
groundwater recharge is insufficient to meet existing needs in the 
area.
    Another basis for so many citizens'' opposition to this proposal 
has been the circumvention of the National Environmental Policy Act. We 
badly need the environmental analysis that comes with NEPA to 
understand the potential impacts on water supply and all of the 
environmental consequences to the vast area of this exchange.
    The aspect of NEPA that would be especially worthwhile in this case 
is the requirement that alternatives for a project be considered. No 
one disputes the benefit of consolidating public ownership in the 
checkerboard lands of the Prescott National Forest, but there is 
substantial controversy over almost every other aspect of the trade.
    Surely there are alternatives that could provide some of the public 
benefits of this exchange and also profit Mr. Ruskin. Instead, we are 
offered an all-or-nothing proposition with potentially devastating 
impacts to our communities.
    In conclusion, we ask, as we have for four years, that the exchange 
go forward only through the administrative process and in pursuance of 
the public interest above all else. Should the legislation proceed, we 
implore you to remove from this proposal all national forest lands in 
the Verde Valley.
                                 ______
                                 
    Mr. Hayworth. Thank you, Mr. Gioia. As you cited the 
different pieces of correspondence in the petitions, would you 
like those included in the record?
    Mr. Gioia. Yes, I would.
    Mr. Hayworth. I therefore at this point ask unanimous 
consent to include that as part of your testimony. There is no 
objection, so that will be included along with your testimony 
and we thank you for being here.
    [The information has been retained in the Committee's 
official files.]
    Mr. Hayworth. Mr. Ruskin?

   STATEMENT OF FRED RUSKIN, MANAGER, YAVAPAI RANCH LIMITED 
                          PARTNERSHIP

    Mr. Ruskin. Chairman Hayworth and members of the 
Subcommittee, my name is Fred Ruskin. My family owns the 
Yavapai Ranch. Ours is a family owned ranch. I have personally 
run the ranch since my father died in 1981. We don't have other 
investments, other businesses, a Keogh plan, a lot of stocks. 
We just have this ranch.
    As you can see from the existing land ownership may 
attached to my testimony, we own approximately 50,000 acres, 
around 85 square miles outright, mingled in this checkerboard 
fashion with national forest land. Our ranch represents better 
than 90 percent of all the undeveloped private lands in all the 
national forests in Arizona.
    As I said, this ranch represents my family's only major 
financial asset. It has been obvious for some time that it 
wasn't feasible to tie up this increasingly valuable piece of 
land just to run cattle on it. The recent drought in Arizona 
has made the cattle business even less attractive, while the 
growth of the surrounding area has made the ranch even more 
desirable for development.
    We now have land on two sides of the ranch being subdivided 
as a I speak, for what would be the largest private development 
in northern Arizona. A city bigger than Prescott is planned for 
the third side of the ranch.
    We have been working on an exchange with the Forest Service 
for a long time. I have been working on this exchange for 
better than 6 years, and working virtually full-time on it for 
the last 3 years. I am here to ask your assistance with this 
land exchange today because, as you heard from Congressman 
Hayworth, there is no reasonable timeframe in which the Forest 
Service could accomplish this exchange by any other mechanism.
    It has been taking the 7 or 8 years mentioned in Arizona to 
do a 50-acre exchange. This is a 55,000-acre exchange taking 
place in 2 counties, 5 cities, and three national forests. My 
family obviously can't continue to commit the time and 
resources to this thing for a process that might never happen.
    I would also point out to you that virtually all the large 
checkerboard exchanges done in the last few years were done 
through the congressional mechanism. It is disingenuous to say 
that the exchange should be done in another fashion, when this 
other method has clearly not been successful.
    Mr. Chairman, the exchange you have before you today would 
trade better than 35,000 of our acres, over 70 percent of the 
land which we own, to the Forest Service. From an ecological 
and recreational point of view, this 35,000 acres is clearly 
the most desirable part of the ranch, and I will refer you to 
the pictures being passed around and in your folder.
    The part the Forest Service will get contains the ponderosa 
pine forest on the ranch, which is the largest one remaining in 
private hands in the State; one of the last untouched valleys 
for antelope adjacent to the existing Juniper Mesa Wilderness 
Area, and it is the high-elevation land providing better 
opportunities for public recreation in the hot summer months. 
It will importantly reduce the developable land base in the 
Verde River watershed by better than 20 square miles. The Verde 
is the last free-flowing year-around river in north central 
Arizona.
    In return for the 35,000 we give to the Forest Service, we 
get 15,000 acres of lower-elevation land and then land around 
the communities of Williams, Flagstaff, Cottonwood, Clarkdale, 
Camp Verde, and Prescott. More than half of the land we get off 
the ranch is not for my family. Rather, it will be to reconvey 
to the municipal governments for airports, water plants, sewer 
facilities, recreation, parks, open spaces, or to children's 
summer camps that currently use these areas. All of these 
communities and summer camps have repeatedly stated their need 
for the exchange to be completed in the near future, not 7, 10 
years from now.
    We think that these pass-through conveyances are an 
excellent way for the Forest Service to acquire as much of my 
family's land as possible, while giving the public land that is 
of lesser ecological value because it is already occupied by 
airports, water treatment plans, and the like. All national 
forest land clearly has value, but it does not all have equal 
value. Again, the pictures tell the whole story. The forest is 
acquiring pristine forests and meadows in exchange for land 
around cities that is already heavily impacted.
    I have spent an awful lot of time putting together a very 
broad coalition supporting this trade. We now have the support 
of every city in Arizona that is part of this trade, all of the 
local chambers of commerce, Game and Fish, many hunter and 
sportsmen group, many influential environmental leaders. I 
don't say that this is a perfect trade, but it is absolutely 
the best trade that I can make.
    More than 25 years ago, my father promised the Forest 
Service that he would give them an opportunity to do a land 
exchange before he developed the land on our ranch. This is 
that opportunity.
    Thank you.
    [The prepared statement of Mr. Ruskin follows:]

      Statement of Fred Ruskin, Yavapai Ranch Limited Partnership

    Chairman McInnis and Members of the Subcommittee,
    My name is Fred Ruskin and my family owns the Yavapai Ranch. Ours 
is a family owned business, which I have personally run since my dad 
died in 1981. We don't own other investments, other businesses, a Keogh 
plan, lots of stocks just this ranch.
    As you can see from the ``existing land ownership'' map attached at 
the end of my testimony, the Yavapai Ranch contains approximately 
50,000 acres of our private land, intermingled with 50,000 acres of the 
Prescott National Forest in a ``checkerboard'' ownership pattern. All 
the white squares inside the heavy black line on the map is our land, 
whereas the green land belongs to the Forest Service The 6 sections you 
see in yellow are owned by outside interests. The second map shows 
proposed land ownership after the trade. The three white inclusions are 
already developed parcels, one of which I live on.
    As I said, the Yavapai Ranch lands represent my family's only 
financial asset. It has been obvious for some time that it was not 
feasible to tie up this increasingly valuable piece of land just to run 
cattle on it. The recent severe drought in Arizona have made the cattle 
business even less attractive, while the growth of the surrounding area 
has made the ranch even more desirable for development. We now have 
land on two sides of the ranch being subdivided, and what will be the 
largest development in Northern Arizona is planned for the third side.
    We have been discussing an exchange with the Forest Service for a 
long time. I have been working on this exchange for six years, and 
working virtually full time on it for the last three years.
    I am here today to seek your assistance with our land exchange, 
because the Forest Service has indicated to us, and to Congressmen 
Hayworth and Stump, that it will take 7-8 years..., I repeat, 7-8 
years... to finish an exchange by administrative means. That is 
probably optimistic; it has been taking the Forest Service almost that 
long to do a fifty acre exchanges in Arizona--this is a fifty-five 
thousand acre exchange. My family simply cannot continue to commit time 
and resources to a process that might not ever happen. And virtually 
all of the large checkerboard or intermingled land exchanges that have 
been done by the Forest Service in the past have been legislated by 
Congress even for such large landowners as Plum Creek Timber, 
Burlington Northern, Big Sky Lumber, Weyerhaeuser, and Potlach .So for 
these reasons we need your help.
    Mr. Chairman, in the exchange that is before you today in H.R. 
5513, we will trade 35,000 acres, or almost 70% of the land we own, to 
the Forest Service. From an ecological and recreational standpoint, 
that 35,000 acres is the most desirable part of the ranch because:
    <bullet> it contains all the ponderosa pine forest on the ranch 
which is the largest ponderosa pine forest still remaining in private 
ownership in Arizona;
    <bullet> it has one of the last untouched valleys in our area 
providing quality antelope range, which the Arizona Department of Game 
and Fish strongly advocates for public ownership;
    <bullet> It is located immediately adjacent to the existing 
Juniper Mesa Wilderness Area, which was established by Congress in 
l984;
    <bullet> It lies at higher elevation, and therefore, provides 
better opportunities for public recreation in the hot summer months; 
and
    <bullet> it will reduce the developable land base in the Verde 
River watershed by roughly 25,000 acres, which would be a major 
protection for this most important, free flowing river.
    In return for the 35,000 acres we will convey to the Forest 
Service, we will receive 15,300 acres of lower elevation lands near our 
ranch headquarters and outlying buildings, plus approximately 5,900 
acres in or near the communities of Williams, Flagstaff, Cottonwood, 
Clarkdale, Camp Verde and Prescott.
    More than half of the acreage we receive in those communities will 
not be retained by us. Rather, these areas will instead be re-conveyed, 
either to municipal governments for airport, water, and sewer 
facilities, recreation, park, open space or other public uses, or to 
the children's summer camps that currently use these areas. All of 
these communities and summer camps have repeatedly stated their need 
for the exchange to be completed in the near future not in 7-8 years.
    Both we and the Forest Service concur that the so-called ``pass-
through'' conveyances of H.R. 5513 are an excellent way for the Forest 
Service to acquire as much of our family's land as possible in trade 
for Forest Service land that is of lesser value to the general public 
because it is already occupied by airports, water treatment plants, 
summer camps and the like. All National Forest land has value to the 
public, but it does not all have equal value. This is for the public 
the most obviously beneficial trade imaginable: The Forest is acquiring 
pristine forest and meadows in exchange for land around cities that is 
already heavily impacted by use and/or location.
    My final point, Mr. Chairman, is that this exchange has been, and 
will continue to be, a cooperative venture with the Forest Service. 
Before this exchange is completed, we will perform: 1) formal 
appraisals in full compliance with the U.S. Department of Justice 
standards that were just revised in 2000; 2) all required threatened 
and endangered species, cultural and historic resource, hazardous 
materials, and wetlands and floodplains analyses; and 3) traditional 
title reviews and analyses, which must be approved by the Forest 
Service. In addition, if the Forest Service determines that it cannot 
give us certain lands because they have values protected by Federal law 
that cannot be mitigated, such as T&E species, or uncommon cultural 
artifacts or sites, the lands in question will drop out of the 
exchange. So, there is no danger that the United States will lose lands 
with unique resources. And, as I have already mentioned, we, the Forest 
Service, and the Arizona Department of Fish and Game believe that the 
lands the Forest Service will acquire have much better environmental 
and recreational values than the lands the Forest Service will give up. 
Finally, as requested by several conservation organizations, the bill 
contains language in Section 7 to insure that the land acquired by the 
Forest Service will be permanently managed to maintain its existing 
natural character and values
    We have put together a very broad coalition supporting this trade. 
We now have the support of every city that is a part of the trade, all 
of the local chambers of commerce, The Arizona Department of Game and 
Fish, many hunter and sportsmen groups, and many influential 
environmental leaders in Northern Arizona.
    Mr. Chairman, thank you for scheduling this hearing on a matter 
that is of utmost importance to my family, and to the people and 
communities of Arizona. I wish that the economics of ranching were 
better than they are, that Arizona had not grown as it has, and that we 
could have afforded to maintain the status quo but that is not the 
reality of the situation today. So, I believe this exchange is in the 
best interest not only of my family but also of the land and people of 
Arizona.
    More than twenty five years ago my father promised the Forest 
Service that he would give them an opportunity to do a land exchange 
before he developed the land on our ranch. This is that opportunity.
    That concludes my testimony. I will be happy to answer any 
questions the Subcommittee might have.
                                 ______
                                 
    [Maps attached to Mr. Ruskin's statement follow; additional 
attachments have been retained in the Committee's official 
files.]

[GRAPHIC] [TIFF OMITTED] T2315.001

[GRAPHIC] [TIFF OMITTED] T2315.002



    Mr. Hayworth. Mr. Ruskin, we thank you very much for that 
testimony.
    Mr. Thompson, I have several questions concerning the 
zoning ordinances you mentioned in your testimony. I have right 
here a copy of the Planning and Zoning Ordinance of Camp Verde 
from the Yavapai County website. If you could, please, sir, I 
would like to have you read the highlighted portion at the 
bottom of the page. It comes from Section 109(d)(3) and 
subsection (A). You can read it. It is highlighted right down 
at the bottom of that page there, Section 109(d)(3), Part (A).
    Mr. Thompson. Where it says ``District Provisions?''
    Mr. Hayworth. I believe that is correct.
    Mr. Thompson. OK. (A), it says ``Notwithstanding any other 
provision of this ordinance, including any density designation, 
no lot or parcel zoned RCU shall have a density less than two 
acres.''
    Mr. Hayworth. Thank you. I think that is important to get 
in the record because we need to move from there. As your 
testimony states, certain so-called market-based indicators 
suggest that the zoning and density might be changed in the 
future and would be much higher than that, perhaps four to six 
units per acre.
    Now, correct me if I am wrong, but in the testimony you 
have presented for the record, your market-based indicators 
suggest that the zoning in Camp Verde will be changed by the 
town council to be 8 to 12 times more than under current 
zoning, and 12 to 18 times higher in Cottonwood-Clarkdale. So 
it seems you are assuming that both town councils will engage 
in a massive up-zoning of the lands after they have privatized.
    I guess there are several questions innate in this. No. 1, 
why would the towns do that? How can you predict what any town 
government is likely to do in the future? And as you ponder 
that, allow me to read from the Uniform Appraisals Standards 
for Federal Land Acquisitions, which are the appraisal 
standards required for all Forest Service land transactions and 
which were recently updated by the Department of Justice in 
December of 2000.
    Let me quote for you: ``Under no circumstances can a 
property be valued as if it were already zoned for a higher 
use. The property must be valued only in light of the 
probability of obtaining a rezoning,'' end of quote.
    So the question at this juncture is have you consulted with 
the towns of Camp Verde and Clarkdale as to whether they might 
change the zoning in the future?
    Mr. Thompson. I assume that we have, but I don't know that 
for sure.
    Mr. Hayworth. So to the best of your knowledge, you don't 
know?
    Mr. Thompson. That is true.
    Mr. Hayworth. But there is an assumption. The Chair would 
ask if you can review written correspondence and get back to 
us. I think that is important.
    Have they given you any indication that they might up-zone 
the lands in question?
    Mr. Thompson. I don't know that for sure.
    Mr. Hayworth. OK.
    Mr. Thompson. We can get back to you with a definite answer 
to the question.
    Mr. Hayworth. You may be familiar with the Growing Smarter 
Initiative which changed the Arizona zoning law in 1998 and 
2000 and made it much more difficult to do these up-zonings. 
Are you familiar with that?
    Mr. Thompson. Generally.
    Mr. Hayworth. Well, I can tell you those of us in 
representative jobs hear a lot about it. Under that initiative, 
if an up-zoning of land is to occur after the year 2000, the 
local government must not only change the zoning, but must 
first change the town's general plan to allow the up-zoning, or 
the town must approve the up-zoning by a two-thirds vote or 
super-majority.
    Is there anything that gives you an indication that the 
towns of Camp Verde and Clarkdale are willing to do that?
    Mr. Thompson. Well, Mr. Chairman, the administration is not 
opposed to the concept of these controls and declarations. It 
is simply the fact that those declarations have the effect of 
devaluing the Federal land. So it is not the declarations that 
are of concern.
    Mr. Hayworth. Well, as we go through the records and take a 
look at the safeguards--and I understand the dynamism of 
federalism, if you will, and I can understand the viewpoint 
from the administration. But what we do in this role as 
constitutional officers is try to reconcile the interests of 
the Federal Government with the people of the State with whom 
we are dealing.
    As I understand it, the town of Camp Verde--the town 
council says they have agreed with the Yavapai Ranch to down-
zone about one-third of the land it will acquire in the 
exchange to an open-space category. So based on the letter I 
have received from Camp Verde, it sounds like they are 
contemplating a down-zoning, not going in the other direction.
    Let me ask Mr. Gioia if he would support a major up-zoning 
in Camp Verde as a city council member.
    Mr. Gioia. As is likely evident by my appearance here 
today, I personally would not. However, the consequences of the 
political turmoil that have been caused by this trade--there 
have been recalls, swings in the balance of majority/minority 
repeatedly in the past few years since the introduction of this 
trade. And I am confident that given the political atmosphere 
of the week, a large-scale change in densities on that land is 
attainable, depending on the majority hearing that issue at 
that time.
    Mr. Hayworth. And, Mr. Gioia, as you know, being an elected 
official, although you come here in a private capacity, it is 
impossible with any certainty to predict the outcome of city 
council votes or going to initiatives. That is the reason we 
have elections. That is why the first Tuesday following the 
first Monday, all of our names will appear on a ballot, and 
with no certainty can we predict that we will return.
    My point is that it seems that we are getting some very 
mixed signals, to say the least, from different folks in 
different roles here and I wanted to bring that up as part of 
the testimony today.
    The Chair thanks the indulgence of other Members. Are there 
any questions for the panel?
    The gentleman from Washington State.
    Mr. Inslee. Thank you.
    My first question is the meaning of the word ``Yavapai.'' 
Does it have a meaning, or does anybody know?
    Mr. Ruskin?
    Mr. Ruskin. In the Indian languages of northern Arizona, 
``pai'' means ``people.'' So we have many people, the 
Havasupai, the people of the Havasu. ``Yava'' was their word 
for the area north and east of where I am. The county is named 
Yavapai and our ranch, one of the traditional ranches in 
Yavapai County, has the name. It also appears in the name of 
two of our Yavapai county Indian tribes, the Yavapais of 
Prescott and the Yavapai Apaches of Camp Verde, sir.
    Mr. Inslee. Great. Now, on more prosaic topics, I am sorry 
my questions may express a lack of sophistication on this 
issue. So I apologize, but I am trying to make sure I 
understand it.
    As I understand it, some local government agency has 
imposed some land use restrictions that may or may not affect 
the Federal lands subject to the transfer. Is that right, Mr. 
Thompson, generally?
    Mr. Thompson. Yes. It is our view that the declarations 
basically, if imposed on the value of the Federal property 
before the exchange, would have the effect of devaluing the 
Federal property.
    Mr. Inslee. Right, and which--
    Mr. Thompson. And it is our position that imposing those 
would, in essence, ask the American public to absorb that 
market value effect on those conditions.
    Mr. Inslee. And which agency, what local agency has imposed 
this?
    Mr. Thompson. It is an agreement between the ranch and the 
Salt River Project.
    Mr. Inslee. The what?
    Mr. Thompson. Salt River.
    Mr. Inslee. Salt River. Is that an irrigation district, or 
what is that?
    Mr. Thompson. A water control organization.
    Mr. Inslee. It is a water control organization. Does that 
water control organization have the right under their charter 
to impose those restrictions on that property now held by the 
Federal Government?
    Mr. Thompson. As I understand, the declaration is between 
the two. The Forest Service, the Department of Agriculture, was 
not involved in those discussions.
    Mr. Inslee. What I am trying to figure out is how can this 
agency impose a legal restriction on the use of Federal 
property without the permission of the owner of the property or 
the power under the local legislation to simply impose a 
restriction. Can someone explain that to me?
    Mr. Thompson. Well, it doesn't impose it on the Federal 
property as it is. It would be ultimately when it became 
private property.
    Mr. Inslee. I see, OK, so it is a covenant with the 
prospective purchaser of the property. Is that correct, Mr. 
Ruskin? Do I have that right?
    Mr. Ruskin. Sir, the Salt River Project is a State agency, 
a water district of the State of Arizona. They are the 
guardians, in effect, or the enforcers of the agreement. As I 
understand the legislation, sir, we are required to sign this 
agreement with the Salt River Project representing the State, 
which limits how much water can be used on the property.
    Mr. Inslee. Would the Federal Government be subject to that 
same requirement as the owner of the property?
    Let me give you an example. If the Federal Government 
wanted to build a camp there and put in ten residences per 
acre, which would be more than this restriction, whatever 
number that is, could the Salt River irrigation project stop 
them from doing that without Federal consent?
    Mr. Ruskin. Sir, I am, as you know, a rancher, not an 
attorney, but my impression is that the Federal Government may 
give away land subject to any number of encumbrances. They 
could retain the mineral rights. In this case, they are 
requiring that all of the water use not be transferred which 
they now hold. So they are not bound by them now, but they 
certainly can give the land away in stages or with 
encumbrances.
    Mr. Inslee. But right now--and we will ask other people 
this question, too, but right now, could the Salt River agency 
impose this restriction on the Federal land without the Federal 
Government's permission? Do you know?
    Mr. Ruskin. I do not, sir.
    Mr. Inslee. I think that is kind of a critical question, at 
least in my judgment, and the reason, it seems to me, at least 
in my view--and I am open to thoughts on this because I haven't 
thought through this--if a local government imposes a land use 
restriction on land that is going to be transferred, in my 
book, that should be part of the appraisal process because you 
need to be subject to whatever land use restrictions apply.
    However, if the prospective purchaser, if you will, simply 
enters into an agreement, that is a much more difficult 
situation for me because then what Mr. Thompson says is the 
Federal Government is absorbing the diminution of value because 
of essentially a private agreement, if you will, between an 
agency and a private owner. That is a different issue.
    So, Mr. Ruskin, can you tell me why did you make that 
covenant with the Salt River agency?
    Mr. Ruskin. Because we were told to do so by the 
legislation itself and by our individual congressional 
delegation. In my discussions with our congressional members 
from Arizona, other than Mr. Colby's office--his district comes 
nowhere near this area--virtually every other Congressman and 
Senator believed that for this land to be transferred, the 
Federal Government needed to impose limitations on growth in 
the Verde Valley and how much water could be used in order to 
protect the Verde River.
    This was not something in any sense that I thought up, sir. 
We were told to do it, and the legislation says in no uncertain 
terms, before this transfer, you shall sign this covenant.
    Mr. Inslee. Thank you. I appreciate that. Thank you.
    Mr. Hayworth. Mr. Gallegly?
    Ms. McCollum?
    Ms. McCollum. Mr. Chair, I am trying to figure a couple 
things out. One is on your hand-outs--it is not really 
numbered; it is to the council member. It is the town of Camp 
Verde. It is on here. I can't give you a page. I am sorry. 
Anyway, you have in here ``The Forest Service must give full 
consideration that the exchange,'' and it goes on and on. And 
then you go on to say, ``This increases the urban/forest 
interface and will exacerbate management problems.''
    So my question to the Forest Service is, are we, by going 
forward with this land exchange, creating more urban/forest 
interface, to your knowledge? Or if you don't have the 
information, could you get back to the Committee?
    Mr. Thompson. What are you reading from there? I am sorry.
    Ms. McCollum. I am reading from a letter to Senator John 
McCain, dated July 23, from the town of Camp Verde, on the 
second page, second from the bottom paragraph, second to the 
last sentence, and I am quoting the letter: ``This increases 
urban/forest interface and will exacerbate management 
problems.''
    Mr. Thompson. I don't have the exact parameter of interface 
that would be created or not created. Let me just say that from 
the standpoint that we have 86 parcels of private land that 
would be consolidated and there would be 3 parcels that would 
remain after the exchange, in our view, that land exchange is 
certainly in the public's interest to reduce the number of 
interspersed parcels. So the urban interface--
    Ms. McCollum. Reclaiming my time, Mr. Chair, the reason I 
bring this up is I have been listening to the gentlemen from 
the West loud and clear and my concern and what I would like 
more information on when we are doing these exchanges is 
exactly to this point. I don't want to do anything that 
increases urban/forest interface exchanges because we have 
enough problems now with the budget that we have going on.
    Mr. Chair, my next question--and I don't know if the Forest 
Service can answer this or not--is the water issues. Is the 
land that the Forest Service is exchanging out, is that where 
the primary recharge of the water occurs? Are you giving up 
recharge areas for water?
    Mr. Thompson. That area that is being exchanged is the 
checkerboard area, so it is every other section. I think our 
sections are all the even sections and the private sections are 
the odd sections. So it is all the same area where the major 
part of the exchange is occurring.
    Ms. McCollum. I asked a question. Do you know if the 
primary exchange is where the water recharge takes place?
    Mr. Thompson. My understanding is, yes, that is the case. I 
mean, it is a very large area.
    Ms. McCollum. So we are exchanging--I don't know if you are 
answering my question or not. I don't think you can.
    To the council member and to both gentlemen who are very 
familiar with the area, I understand that there is a drought 
and from a ranching perspective the Federal Government has 
limited the amount of water that you can use.
    Can you tell from an urban responsibility as a council 
member your responsibility and the area's responsibility in 
making sure there is enough potable water for the residents 
that are currently there?
    Mr. Gioia. As my responsibility in the area--and I have 
taken that to great length in many intergovernmental groups and 
worked with USGS--there is not only a drought, but a depletion. 
We are living in a desert. It happens to be an emerald green 
oasis in the desert, but that has largely to do with surface 
water.
    The question of Salt River Project having any dictation 
over the area of the exchange in the Camp Verde and Clarkdale 
area--the Department of Water Resources was given a map of the 
holocene alluvium. That is where the adjudication claim, or 
what SPR, Salt River Project, calls sub-flow--it is the water 
that seeps into the sand and gravel from the river.
    They are claiming that water is part of surface water 
rights. That area is outside of these trade parcels. The trade 
parcel questions are about groundwater. SRP does not lay claim, 
as I understand from the map, and I am on the adjudication 
Subcommittee for the Verde Valley, legal Subcommittee for the 
Verde Valley.
    As I understand it, dictation by SRP of lands that are not 
even in question for adjudication is basically a farce. It is a 
facade, and I thank those involved for making an attempt to 
deal with our grave problem of a lack of water supply in the 
Verde Valley. However, this particular attempt, these 
covenants, allow any water company created for or supplying to 
that area to circumvent these covenants. They dissolve.
    It allows the proponent and the SRP to, upon mutual 
agreement, dissolve these covenants. There are several ways 
that these covenants can just disappear. So although I agree we 
need certain measures to protect the minimal water sources that 
we have, SRP being involved in writing these covenants I don't 
feel is of any great strength to our efforts to protect our 
water source, our very meager water source.
    Mr. Ruskin. May I respond?
    Ms. McCollum. Well, that is up to the Chair.
    Mr. Hayworth. Oh, certainly, please.
    Mr. Ruskin. I would not in any way pass myself off as a 
water expert. Clearly, the knowledgeable people on the scene in 
the Forest Service and in SRP--if you like them or not, they 
are the State water district--believe that this trade as it is 
constituted is an enormous saving of water because it severely 
reduces the amount of land for development on the ranch, which 
as it stands is one of the major contributors to the Verde 
River. It is the watershed where the rainfall flows off and 
replenishes the water supply that becomes the Verde River.
    So they believe that if you decrease the amount of land for 
development up above the head waters of the Verde, it would be 
a huge gain in water as long as the small amount of land in the 
Verde Valley itself is not allowed to use a large amount of 
water, and this is what they have done.
    It is like so much else in this trade, ma'am, a compromise. 
You have heard from the Forest Service saying too strict 
development on this land and it hurts our value. You have heard 
Mr. Gioia say these are worthless; they are not nearly strong 
enough.
    As a layman, all I can tell you is the Forest Service and 
the experts involved believe that the trade as it is 
constituted would be a savings in water.
    Ms. McCollum. Mr. Chair, if I could, just a follow on that.
    Mr. Hayworth. Sure, go ahead.
    Ms. McCollum. So there are restrictions on the water use 
and if it goes into your use for ranching, it doesn't have the 
high-impact development. What is the guarantee to the 
municipalities, to the State, to the Federal Government that 
when the times comes that your family no longer wants to be 
involved in ranching that, in fact, that land not be plotted, 
subdivided and put into a development? Is there a restriction 
on you being able to do that? Does it revert back? What 
happens?
    Mr. Ruskin. Well, we are talking about two different pieces 
of land, ma'am. On the ranch itself, if you will look at that 
second map I gave you, the land that we block up we certainly 
have the option to develop in future years.
    Ms. McCollum. I agree with you.
    Mr. Ruskin. But it is only a little more than a quarter of 
our existing land. So three-quarters, and the higher-elevation 
three-quarters, the attractive three-quarters or two-thirds, 
whatever it is, goes to the Forest Service and is theirs 
permanently.
    So, yes, we can develop what is left, but it is a much 
smaller piece. And, again, think of the numbers. We are giving 
the Forest Service 35,000 acres on the ranch. We get back 
15,000, more or less. So there is a net change of about 20,000 
acres, 20,000 acres less of private land above the head waters 
of the Verde. In the Verde Valley, we receive in the 
neighborhood of 3,000 acres, and on that 3,000 acres there are 
very strong limits on how much water can be used.
    Ms. McCollum. Mr. Chair, coming from a State with a lot of 
water and you coming from a State with little water, water is 
important no matter where you live.
    Mr. Hayworth. Well, that is certainly true.
    Ms. McCollum. And I don't feel that I have enough 
information to understand how the hydrology of all of this 
works. But I do have a parliamentary question for you, Mr. 
Chair.
    Is this packet of information from--is it Gioia? Am I 
saying your name right?
    Mr. Gioia. Gioia.
    Ms. McCollum. Gioia. Excuse me, sir.
    Mr. Gioia. Thank you.
    Ms. McCollum. Is this in for the record?
    Mr. Hayworth. Oh, yes, I have included--everything he 
brought for testimony has been included in the record.
    Ms. McCollum. So the statement in here that I referenced 
from the letter that was sent to Senator McCain is part of the 
record?
    Mr. Hayworth. Yes, and we made new letters that he brought 
today, along with petition signatures, part of the record as 
well.
    Ms. McCollum. And, Mr. Chair, I think it would be 
interesting for you and I to find out if we are, in fact, 
having the Forest Service go back and look to see if we are 
increasing the amount of urban interface.
    Mr. Hayworth. To that point--and I thank the gentlelady for 
her question--it seems the conundrum is this: This is the 
typical checkerboard, we call it in the West, and under the 
proposed exchange the land holdings are consolidated and thus 
the exchange.
    Living in Arizona and seeing the interest, if we take what 
is checkerboarded now, I think under the definition of 
interface you have more of the situation there now. But suppose 
we don't have any land exchange and things are free to develop 
as they--a family turns to development after not getting the 
exchange done.
    It seems to me you are going to have much greater interface 
either with maintaining the current situation or seeing these 
lands subdivided into private ownership because of the 
challenge we are dealing with right there. Indeed, Arizona has 
adopted Growing Smarter initiatives to try and work with this.
    Part and parcel of what happens so often in the West, 
because so much of our land is under Federal control--when we 
try to work these exchanges, we are seeing more and more 
exchanges coming for environmental and recreational concerns to 
get land in the hands of the Federal Government, to consolidate 
and, in fact, eliminate the notion of interface.
    But that is my perception of the situation and, of course, 
before we dismiss the panel I know we have a couple of more 
questions. We will be happy to have a round two. And, of 
course, all those who testify to us have 10 days to get back to 
us in writing if we have some specific concerns for them where 
they can follow up on that.
    Let me offer a question. I know my friend from Washington 
State may have questions and I am not sure if the gentleman 
from California does.
    Mr. Ruskin, what assurances do you have that you will pass 
the lands that you have acquired in Williams and Flagstaff 
through to the communities for their airport expansion and 
other municipal uses? What would happen if you tried to keep 
them for yourself?
    Mr. Ruskin. Well, if you look at how the legislation is 
written, sir, on these lands that are to be passed through, if 
we do not have fixed, firm agreements before the legislation 
closes with the parties that would acquire them, the current 
lease-holders, we have the right to ask the Forest Service to 
delete them from the trade. There is no way in the world my 
family wishes to be a landlord for sewage plants, water 
treatment plants, kids' summer camps and the like.
    Clearly, they are currently zoned for their current use, 
water plants, and in private hands they would be absolutely 
useless, which is why under no circumstances would we indeed 
accept them.
    Mr. Hayworth. Thank you, Mr. Ruskin.
    Mr. Gioia, the Chair would note that we have had a chance 
to meet informally and we thank you for coming into the formal 
setting to offer your testimony. I want to compliment you on 
what are obviously sincere and heartfelt beliefs about future 
land and water use in your valley. You have spent a great deal 
of time both as an elected official and a volunteer with many 
organizations working on matters of great importance to your 
future and the future of your community.
    We may disagree on some statements here about the way you 
perceive the bill. I do know this: Whatever the future holds, 
and should H.R. 5513 become law, I fully expect that you will 
remain a watchdog on land and water issues in the Verde Valley, 
and for that you have my respect and gratitude.
    Mr. Gioia. Thank you very much, Mr. Chairman.
    Mr. Hayworth. Thank you, Mr. Gioia.
    The gentleman from Washington State had a couple of 
questions.
    Mr. Inslee. Thank you.
    Mr. Gioia, is the Federal land that is subject to the 
transfer in a city jurisdiction or a county, or who would 
typically be doing land use decisionmaking in there if it 
wasn't private property?
    Mr. Gioia. The Camp Verde portion borders on the Camp Verde 
town limits and it is in the county. The Clarkdale is written 
as Cottonwood portion. However, Clarkdale as extended its 
borders to annex this particular land. The last Clarkdale 
council was vehemently opposed to this and as a matter of 
restricting growth on that land, they annexed that land.
    Mr. Inslee. So if this land was now private property, in 
part the county could be imposing land use restrictions, one of 
the cities, then?
    Mr. Gioia. Correct. The Camp Verde portion is only in small 
part within the jurisdiction of Camp Verde.
    Mr. Inslee. So if the Federal land was in private hands 
today, what restrictions would there be by county or city 
ordinance? Can you tell us? Can you predict, can you suggest 
what would happen?
    I guess the real question is would the restrictions imposed 
by this private covenant be reflected in a public restriction 
when and if they are in private hands?
    Mr. Gioia. I actually also work for the county as co-
chairman of the Yavapai County Water Advisory Board, and we 
deliberate and investigate suggestions for the county board of 
supervisors. We have a good ear in County Supervisor Chip 
Davis, who represents the Verde Valley, and I am afraid often 
the balance is two to one.
    So questions of development in that area would again be 
unpredictable. Restrictions on water--the Yavapai Water 
Advisory Board has been working on a regional water management 
plan and we are still 2 1/2, 3 years out with our scientific 
information.
    Mr. Inslee. Mr. Ruskin, the dilemma, it seems to me, is you 
sign a covenant that reduces the value of the Federal property, 
but the covenant is something that is only temporary that the 
parties can extinguish at a later date. And I am not sure about 
the public interest in doing it. I obviously don't know the 
circumstances of it.
    Have you considered some type of agreement with the county 
and/or city, once it goes into private ownership, to agree to a 
public restriction? You could then tell the Federal Government 
that immediately when it goes into private hands it will be 
subject to a public restriction and therefore should be valued 
accordingly. Is there any problem doing that if you have some 
of us demonstrating concern about reducing the value because of 
this private covenant?
    Mr. Ruskin. Sir, to my knowledge, the water restrictions 
proposed were based on and calculated on the existing county 
and city zoning, which is in Camp Verde and Yavapai County a 
house per two acres, as the Chairman had said, and in Clarkdale 
a house per three acres. The water figures are predicated on 
those. So the idea was clearly we are never going to go for 
higher zoning. That is what it is. That is all the water there 
is.
    Yes, at their pleasure, the Salt River Project can change 
it, but any change they make is not going to be for greater 
water use on these parcels. Their job is to preserve water 
flowing downstream into the Salt River Valley.
    So, yes, we would be glad to in any way further strengthen 
those. Such is the power and vigilance of the Salt River 
Project in Arizona, and I don't think any rational rancher or 
businessman in Arizona would ever make plans on changing these. 
That is why the Salt River Project was left the enforcer of the 
agreement by, I think, the congressional delegation.
    Mr. Inslee. Thank you.
    Mr. Hayworth. I thank the gentleman from Washington State.
    I would like to thank the witnesses for their insights and 
thank the Members for their questions. The Members may have 
additional questions for the witnesses, and we would ask that 
you please respond to those in writing. The hearing record will 
be held open for 10 days for these responses.
    So, thanks to all three of you gentlemen, especially those 
who made the hardship duty of coming back to Washington from 
beautiful Arizona.
    Tony, Fred, thank you. Tom, as always, from the Forest 
Service, we thank you for your comments as well.H.R. 5102 and 
H.R. 5185
    Mr. Hayworth. Now, it is my honor to introduce witnesses 
for H.R. 5102 and 5185. On panel two, we have got our good 
friend from California who joins us on the dais here, 
Congressman Elton Gallegly, of the 23rd District of that great 
State. We hope that Congressman Gibbons might be able to join 
us. We know that we have his statement for the record. He is 
from the 2nd District of Nevada.
    Mr. Larry Hamilton, the Director of Fire and Aviation of 
the Bureau of Land Management; the aforementioned Mr. Thompson 
from the National Forest System, who is accompanied by Jerry 
Williams, Director of Fire and Aviation of the U.S. Forest 
Service; and Mr. Roy Resavage, the President of Helicopter 
Association International.
    Roy, I hope I didn't totally butcher your name, but the 
Chair always is happy to be corrected at the important 
junctures in the record.
    With that in mind, let me first turn to the gentleman from 
California, Mr. Gallegly, for any statement he might wish to 
make.

   STATEMENT OF THE HON. ELTON GALLEGLY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Gallegly. Thank you very much, Mr. Chairman. I really 
appreciate the opportunity to discuss my legislation, the 
Wildfire Response Enhancement Act, which is so important to the 
health and safety of fire-risk communities.
    Mr. Chairman, in 1993, as wildfires ravaged across my 
district, bureaucratic foul-ups kept Air National Guard 
firefighting tankers on the tarmac for crucial hours as the 
fires advanced on several communities. Even though Air Guard 
personnel were ready to go, U.S. Forest Service officials 
refused to give the go-ahead because of the arcane Depression-
era Economy Act.
    As you know, the Act restricts the use of Federal personnel 
and resources until all commercially available resources have 
been deployed. When time matters and lives and property are 
endangered, this is totally unacceptable. That is why I 
originally introduced the legislation in the 103rd Congress to 
exempt firefighting efforts from the Economy Act.
    In response to this year's record wildfires and two tragic 
commercial C-130 tanker crashes, I have reintroduced this 
legislation. Under my bill, the Secretaries of Interior and 
Agriculture may call on firefighting resources if they make a 
determination that those resources are necessary to properly 
respond to a wildfire in a timely and effective manner.
    My legislation's intent is not to harm the public safety 
commercial aircraft industry, but rather to encourage the 
departments to respond quickly to wildfires using the most 
available and advanced equipment, even though all commercial 
aircraft may not have been deployed.
    Mr. Chairman, the time for changing the statute is very 
clear. In emergency situations, we can no longer rely solely on 
the aging fleet of commercially owned public safety aircraft, 
especially when more advanced planes and resources are more 
readily available.
    As stated by a recent L.A. Times article entitled ``The 
Test of Fire for Aging Aircraft,'' the commercially operated 
planes are unlike anything else for the public safety. One 
Forest Service employee was quoted saying the commercial fleet 
was a flying museum. The article also stated that some planes 
have gun turrets and cracked wood floors from World War II and 
the Korean service. Most importantly, the editor of Aviation 
Week magazine was quoted as saying the current system is 
broken, the time has come to throw out the statutes.
    Mr. Chairman, I would ask that this article be made a part 
of the record.
    Mr. Hayworth. Without objection, so ordered.
    [The article has been retained in the Committee's official 
files.]
    Mr. Gallegly. In addition, Mr. Chairman, I would like to 
add to the record a letter from Major General Paul Monroe, 
Adjutant General of the California National Guard, supporting 
the legislation.
    Mr. Hayworth. Without objection.
    [The letter has been retained in the Committee's official 
files.]
    Mr. Gallegly. Mr. Chairman, when it comes to saving 
people's lives and property, we can't afford to bench our best 
and most available firefighting resources. I urge that this 
bill be given an opportunity to be considered before the 
Resources Committee in the near future.
    Again, I thank you, Mr. Chairman. This is a very, very 
important issue, and I yield back.
    [The prepared statement of Mr. Gallegly follows:]

Statement of Hon. Elton Gallegly, a Representative in Congress from the 
                          State of California

    Thank you Mr. Chairman for this opportunity to discuss my 
legislation, the Wildfire Response Enhancement Act, which is so 
important to the health and safety of fire-risk communities.
    Mr. Chairman, in 1993 as wildfires ravaged across my district, 
bureaucratic foul-ups kept Air National Guard firefighting tankers on 
the tarmac for crucial hours as the fires advanced on several 
communities. Even though Air Guard personnel were ready to go, U.S. 
Forest Service officials refused to give the go-ahead because of the 
arcane Depression-era Economy Act. As you know, the Act restricts the 
activation of federal personnel and resources until all commercially 
available resources have been deployed. When time matters and lives and 
property are endangered, this is unacceptable.
    That is why I originally introduced legislation in the 103rd 
Congress to exempt firefighting efforts from the Economy Act. In 
response to this year's record wildfires and two tragic commercial C-
130 tanker crashes, I have reintroduced this legislation. Under my 
bill, the Secretaries of Interior and Agriculture may call on 
firefighting resources if they make a determination that those 
resources are necessary to properly respond to a wildfire in a timely 
and effective manner. My legislation's intent is not to harm the public 
safety commercial aircraft industry, but rather to encourage the 
departments to respond quickly to wildfires using the most available 
and advanced equipment, even though all commercial aircraft are not 
deployed.
    Mr. Chairman, the time for changing this statute is clear. In 
emergency situations, we can no longer rely solely on the aging fleet 
of commercially owned public safety aircraft, especially when more 
advanced planes and resources are more readily available. As stated by 
a recent LA Times article titled ``Test of Fire for Aging Aircraft,'' 
the commercially operated planes are unlike anything else used for 
public safety. One Forest Service employee was quoted as saying the 
commercial fleet was a ``Flying Museum.'' The article also stated that 
some planes still have gun turrets and cracked wood flooring from World 
War II and Korean service. Most importantly, the editor of Aviation 
Week Magazine was quoted as saying ``The current system is broken . . 
.the time has come to throw out the statutes.'' Mr. Chairman, I would 
ask that this article be allowed into the record.
    In addition, I would also like to add into the record a letter from 
Major General Paul Monroe, Adjutant General of the California National 
Guard, supporting my legislation.
    Mr. Chairman, when it comes to saving people's lives and property, 
we can not afford to bench our best and most available firefighting 
resources. I urge that this bill be given an opportunity to be 
considered before the Resources Committee in the near future. Again, I 
thank the Chairman.
                                 ______
                                 
    Mr. Hayworth. We thank the gentleman from California.
    We would turn now to those who join us dealing with some 
scheduling situations. We understand that Mr. Hamilton, 
Director of Fire and Aviation from the Bureau of Land 
Management, would like to proceed.
    Mr. Hamilton, we are happy to hear your testimony.

  STATEMENT OF LARRY HAMILTON, DIRECTOR OF FIRE AND AVIATION, 
    BUREAU OF LAND MANAGEMENT, ACCOMPANIED BY LYNN FINDLEY, 
  MANAGER, NATIONAL AVIATION OFFICE, BUREAU OF LAND MANAGEMENT

    Mr. Hamilton. Good afternoon, Chairman Hayworth and members 
of the Committee. I am Larry Hamilton, Director of Fire and 
Aviation for the Bureau of Land Management. With me today is 
Lynn Findley, who is Manager of the BLM's National Aviation 
Office, and we appreciate the opportunity to meet with you 
today to discuss H.R. 5102 and H.R. 5185, legislation 
addressing our acquisition of important aircraft goods and 
services needed to fight wildland fires. I want to thank the 
Committee for its support of the Department's ongoing efforts 
to continuously improve our wildland firefighting capabilities.
    As the members of the Committee know, the 2002 wildland 
fire season has been long and challenging. It began earlier 
than usual in the Southwest and southern Rockies, months ahead 
of schedule. To date, over 6.67 million acres have burned, the 
result of numerous conditions, including record severe drought 
in many parts of the country.
    Despite demanding, dangerous conditions, I am pleased to 
report that our firefighters have been very successful this 
season. With funding from Congress which the Department of the 
Interior agencies used to hire and train additional 
firefighters, purchase additional engines, and contract for 
additional helicopters, our firefighters have been more 
effective than ever, controlling over 99 percent of all fires 
on initial attack.
    Aviation support is among the most heavily relied upon 
support we receive in our efforts to fight wildfires, 
especially during this catastrophic fire season. In many 
instances, aircraft assistance can and does make a critical 
difference in controlling a fire upon initial attack. Aircraft 
are essential in protecting homes and other valuable resources 
because the water and fire retardant they release reduce the 
intensity of fire, enabling ground crews to build fire lines 
when it would otherwise be too hot and dangerous to do so.
    Since 2000, increasing demands for specialized aviation 
resources have resulted in shortages in some categories, 
particularly large air tankers and helicopters for fire 
suppression missions, including direct attack, firefighter 
delivery to remote areas, and aerial resupply.
    In 2002, three crashes within the federally contracted 
aircraft industry involving aircraft engaged in wildland 
firefighting work, one in California and two in Colorado, 
caused even further shortages in aerial resources by grounding 
the types of aircraft involved while investigations proceeded 
to determine whether the causes of those crashes were 
attributable to the aircraft.
    The availability of National Guard and Reserve aircraft 
fitted with the Modular Airborne Fire Fighting System filled 
some of the void created by those losses and were of 
inestimable value in mitigating the shortages. In the wake of 
these terrible tragedies, a joint blue ribbon panel has been 
established by the USDA Forest Service and the Department of 
the Interior to review, among other things, safety management 
in our aviation program. The panel is expected to release its 
report by mid-November 2002.
    The contributions of civilian contractors of both air 
tankers and helicopters are significant. Private industry 
provides the core of our airborne capability and has always 
been up to the task. However, the air tanker industry will be 
seriously challenged to continue uninterrupted the level of 
service needed by the Department.
    Newer-generation aircraft are not readily available and 
will not be for some time., and the continued service of some 
existing air tankers is in question. While the innovativeness 
of these operators will eventually provide solutions, at least 
in the immediate future there will continue to be a need for 
additional capacity, such as that which might be provided by 
the National Guard and Reserve MAFFS aircraft, helicopters, 
crews, and support personnel.
    H.R. 5102 provides an exemption to Section 1535(a)(4) of 
Title 31 of the United States Code, which states that prior to 
placing an order for goods or services within the same or 
another Federal Agency, the head of the Federal agency must 
decide that the ordered goods or services cannot be provided by 
contract as conveniently or cheaply as a commercial enterprise.
    We appreciate the sentiment underlying H.R. 5102 and 
similar type changes that would be made by H.R. 5185, which is 
to facilitate the Departments of the Interior and Agriculture's 
access to the full range of available firefighting resources, 
including those in the public sector. However, we believe that 
sufficient flexibility currently exists under the Economy Act 
to achieve the objectives of this legislation, and therefore we 
cannot support these bills.
    We will continue to examine ways to ensure that we have 
timely access to additional private and public sector resources 
where current contracts or inter-service support providers are 
already operating at full capacity or the ability of existing 
contractors or inter-service support providers to respond in a 
life-threatening or significant loss of property situation is 
in question.
    We want to thank the Committee for its ongoing support of 
our wildland firefighting efforts. Private industry has been 
and will continue to be a valuable part of our efforts to fight 
wildland fire. However, in certain emergency situations we have 
augmented this capacity with cost-effective public resources.
    I would be glad to answer any questions that the Committee 
may have for me.
    [The prepared statement of Mr. Hamilton follows:]

 Statement of Larry Hamilton, Director of Fire and Aviation, Bureau of 
            Land Management, U.S. Department of the Interior

    Good Morning Chairman McInnis and Members of the Committee. I am 
Larry Hamilton, Director of Fire and Aviation for the Bureau of Land 
Management. With me today is Lynn Findley, Manager of the BLM's 
National Aviation Office. I appreciate the opportunity to meet with you 
today to discuss H.R. 5102 and H.R. 5185, legislation addressing our 
acquisition of important aircraft, goods and services needed to fight 
wildland fires. I want to thank the Committee for its support of the 
Department's ongoing efforts to continuously improve our wildland 
firefighting capabilities.
    As members of the Committee know, the 2002 wildland fire season has 
been long and challenging. It began earlier than usual, in the 
Southwest and Southern Rockies, months ahead of schedule. To date, over 
6.67 million acres have burned, the result of numerous conditions, 
including record, severe drought in many parts of the country.
    Despite demanding, dangerous conditions, I am pleased to report 
that our firefighters have been very successful this season. With 
funding from Congress which the Department of the Interior agencies 
used to hire and train additional firefighters, and purchase additional 
engines and contract for additional helicopters, our firefighters have 
been more effective than ever, controlling over 99% of all fires on 
initial attack.
    Aviation support is among the most heavily relied upon support we 
receive in our efforts to fight wildfires, especially during this 
catastrophic fire season. In many instances, aircraft assistance can 
and does make a critical difference in controlling a fire upon initial 
attack. Aircraft are essential in protecting homes and other valuable 
resources because the water and fire retardant they release reduce the 
intensity of fire, enabling ground crews to build fire lines when it 
would otherwise be too hot and dangerous to do so.
    Since 2000, increasing demands for specialized aviation resources 
have resulted in shortages in some categories, particularly large 
airtankers and helicopters capable of fire suppression missions, 
including direct attack, firefighter delivery to remote areas and 
aerial resupply. In 2002, three crashes within the Federally contracted 
aircraft industry involving aircraft engaged in wildland fire fighting 
work, one in California and two in Colorado, caused even further 
shortages in aerial resources by grounding the types of aircraft 
involved while investigations proceeded to determine whether the causes 
of those crashes were attributable to the aircraft. The availability of 
National Guard and Reserve aircraft fitted with Modular Airborne Fire 
Fighting System (MAFFS) filled some of the void created by these losses 
and were of inestimable value in mitigating the shortages. In the wake 
of these terrible tragedies, a joint Blue Ribbon Panel has been 
established by the USDA Forest Service and the Department of the 
Interior, to review, among other things, safety management in our 
aviation program. The panel is expected to release its report by mid-
November, 2002.
    The contributions of civilian contractors of both airtankers and 
helicopters are significant. Private industry provides the core of our 
airborne capability and has always been up to the task. However, the 
airtanker industry will be seriously challenged to continue 
uninterrupted the level of service needed by the Department. Newer 
generation aircraft are not readily available and will not be for some 
time, and the continued service of some existing air tankers is in 
question. While the innovativeness of these operators will eventually 
provide solutions, at least in the immediate future, there will 
continue to be a need for additional capacity, such as that which might 
be provided by the National Guard and Reserve MAFFS aircraft, 
helicopters, crews, and support personnel.
    H.R. 5102 provides an exemption to Section 1535 (a)(4) of Title 31 
of the United States Codes which states that prior to placing an order 
for goods or services within the same or another Federal agency, the 
head of the Federal agency must decide that the ordered goods or 
services cannot be provided by contract as conveniently or cheaply by a 
commercial enterprise. We appreciate the sentiment underlying H.R. 
5102, and similar type changes that would be made by H.R. 5185, which 
is to facilitate the Departments of Interior and Agriculture's access 
to the full range of available firefighting resources--including those 
in the public sector. However, we believe that sufficient flexibility 
currently exists under the Economy Act to achieve the objectives of 
this legislation and, therefore, we cannot support these bills. We will 
continue to examine ways to ensure that we have timely access to 
additional private and public sector resources where current contracts 
or inter-service support providers (i.e., public providers) are already 
operating at full capacity or the ability of existing contractors or 
inter-service support providers to respond in a life threatening or 
significant loss of property situation is in question.
    We thank the Committee for its ongoing support of our wildland 
firefighting efforts. Private industry has been and will continue to be 
a valuable part of our efforts to fight wildland fire. However, in 
certain emergency situations, we have augmented this capacity with 
cost-effective public resources. As stated earlier, we will continue to 
examine ways to ensure that we have timely access to additional private 
and public sector resources needed to fight wildland fires. We 
appreciate the continued bipartisan support we have received from the 
Congress, and we look forward to working with you as we improve the 
processes used to support our firefighting efforts.
    I will be happy to answer any questions the Committee may have for 
me.
                                 ______
                                 
    Mr. Hayworth. Mr. Hamilton, we thank you for the testimony.
    The aforementioned Mr. Thompson, who joined us on the first 
panel, thanks for sticking around. We look forward to your 
testimony now.

   STATEMENT OF TOM THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
      SYSTEM, FOREST SERVICE, UNITED STATES DEPARTMENT OF 
 AGRICULTURE, ACCOMPANIED BY JERRY WILLIAMS, DIRECTOR OF FIRE 
 AND AVIATION, NATIONAL FOREST SYSTEM, FOREST SERVICE, UNITED 
  STATES DEPARTMENT OF AGRICULTURE ON H.R. 5102 AND H.R. 5185

    Mr. Thompson. Thank you again, Mr. Chairman, for this 
opportunity to appear before you today. I am Tom Thompson, 
Deputy Chief of the National Forest System. With me is Jerry 
Williams, who is the Director of Fire and Aviation Management 
for the Forest Service.
    I would like to present the administration's views on H.R. 
5102, the Wildfire Response Act of 2002, and 5185, which is the 
Wildfire Response Enhancement Act. Before discussing these 
bills, I would like to take a few moments to update you on the 
status of our aviation program.
    As you are well aware, this has been an unusual fire 
season. Not only have we had and seen a dramatic increase in 
fire intensity and loss of resources, but because of the loss 
of human life this has been an extremely tragic year for our 
aviation firefighting program.
    The U.S. Department of Agriculture Forest Service and the 
Department of the Interior administer a challenging aviation 
program to support the national firefighting effort. We 
contract for 44 large air tankers, over 100 exclusive-use 
helicopters, and nearly 300 more ``call when needed'' 
helicopters. These aircraft are flown by highly professional 
pilots and form the backbone of our airborne resources and are 
more than adequate to meet our needs during a normal fire 
season.
    However, the meaning of a ``normal'' fire season has 
changed with the conditions of our forests, and in both 2000 
and 2002 the military provided a critical surge capacity which 
was needed. Occasionally, we may need to call upon these 
resources under time-sensitive conditions to meet urgent 
requirements.
    Chief Dale Bosworth and Kathleen Clarke, Director of the 
BLM, decided that we needed to step back and get an objective 
outside view of our program. So they jointly commissioned a 
blue ribbon fact-finding panel to determine the adequacy of our 
current aviation program.
    This fact-finding panel includes some of the best minds in 
the fire and aviation community. Included are a former Chairman 
of the National Transportation Safety Board, the State Forester 
of Texas, and the previous Director of the Transportation 
Safety Board of Canada. The panel is expected to issue its 
report by this November. This report is expected to identify 
strengths, weaknesses and fail points, and provide information 
in five areas: safety, operational effectiveness, costs, 
sustainability, and strategic guidance.
    Using information from this comprehensive report, both 
agencies will be in a much better position to meet the complex 
short- and long-term challenges of our firefighting and 
aviation program. We will share the panel's findings and our 
proposed actions with you when they are available.
    Let me move to H.R. 5102 and H.R. 5185 directly. As you are 
well aware, the 2002 fire season was one of the most 
devastating seasons in recent memory. Not only have we seen a 
dramatic increase in fire intensity and loss of resources, but 
because of the loss of human life it has been a tragic year.
    I want to thank the Committee for its support of all of our 
ongoing efforts to continuously improve our wildland 
firefighting capabilities. I know that without the support that 
we have gotten, we would not have been able to control the 
fires that we were, and we controlled a large, large number. I 
think 99 percent of all the fires were controlled.
    With regard to 5102, it would give the Secretaries of 
Agriculture and the Interior expedited authority to utilize 
military aircraft and attendant personnel to fight wildfires 
without first comparing costs of procuring the same services 
from a commercial enterprise, as currently required by the 
Economy Act.
    H.R. 5185, legislation that is somewhat broader than 5102, 
would give us the option to use military resources without 
making the determination that commercial sources were 
unavailable.
    We certainly appreciate the Committee's desire to ensure 
that the Department is vested with the flexibility needed to 
assess cost-effective, quality sources in a timely manner, 
including emergency situations. We believe, however, that there 
is sufficient flexibility currently under the Economy Act to 
achieve the objectives of this legislation, and for this reason 
cannot support the legislative changes proposed by these bills.
    This concludes my statement. I would be happy to answer 
questions.
    Mr. Hayworth. We thank you, Mr. Thompson.
    The Chair would ask the next witness for forgiveness for 
addressing him in an informal fashion.
    But, Roy, could you help me pronounce your last name?
    Mr. Resavage. Yes, Mr. Chairman. It is Roy Resavage. I am 
the President of Helicopter Association International.
    Mr. Hayworth. Mr. Resavage, aka Roy, your testimony is 
welcome, as you are, in front of the Committee.

 STATEMENT OF ROY RESAVAGE, PRESIDENT, HELICOPTER ASSOCIATION 
                         INTERNATIONAL

    Mr. Resavage. Thank you very much. Good morning, Mr. 
Chairman and Mr. Gallegly. I am honored to appear before you 
today and express the views of Helicopter Association 
International, HAI, concerning two bills, H.R. 5102 and H.R. 
5185.
    HAI is a not-for-profit professional trade association of 
over 1,400 member organizations in the United States and 
throughout the world. Member companies include operators of 
civil helicopters, manufacturers, and peripheral industry 
supporters. The majority of the members are small businessmen 
and women, and a substantial number are engaged in 
firefighting. HAI members safely operate more than 5,000 
helicopters and approximately 2 million hours every year.
    HAI takes exception with H.R. 5102's proposed authorization 
for the use of military aircraft and personnel of the armed 
forces to fight wildfires without first comparing the cost and 
convenience of procuring the same services from a commercial 
enterprise. H.R. 5185 expands the scope of these waivers by 
extending the same relaxations to any Federal agency.
    While HAI recognizes language in the bills require 
congressional notice of the use of the exception to the Economy 
Act and the reasons for the use of this exception, HAI is 
concerned that the notice to Congress would be made after the 
fact and that the measure could facilitate the immediate call-
up of military resources without any realistic oversight or 
control.
    It is our contention that the Federal Government's aerial 
firefighting function is more adequately performed by a cost-
effective, professional industry within the United States 
consisting of private sector companies. At present, an 
excellent working relationship exists between HAI members and 
other members of the firefighting industry with the U.S. Forest 
Service; the National Interagency Fire Center, NIFC; the Office 
of Aircraft Services, OAS; and the Bureau of Land Management, 
BLM.
    Protecting lives and assets of U.S. citizens is of the 
utmost concern to HAI's firefighting members. However, any 
increase in military or National Guard aerial firefighting 
assets, and directing their use as an initial response 
resulting from the passage of H.R. 5102 or H.R. 5185, would be 
in direct competition with private enterprise. Firefighting is 
not an inherently governmental function, nor is it a military 
function. Current Federal policy does not advocate competition 
between the Federal and the private sectors.
    Tax-paying entities would be jeopardized by inappropriate 
use of the relaxations being contemplated. Existing law permits 
Federal goods and services to be used whenever, in the judgment 
of the Federal agency head, the resources cannot be provided as 
conveniently or cheaply by commercial contract. This 
legislation does not improve the existing law.
    National Guard components are already used in an adjunct 
role during severe wildfire conditions. However, supplying 
routine military or National Guard wildland firefighting aerial 
resources is not appropriate. Wildland firefighters require an 
identifiable and predictable fleet of aerial firefighting 
aircraft that are not subject to higher priority tasking. One 
need only look at the events of September 11 to see that 
members of the National Guard may be called to duty elsewhere.
    Aviators involved in wildland firefighting require 
specialized training and repetitive teaming with the entire 
firefighting community. Ad hoc participation in this high-risk 
environment by pilots inexperienced in firefighting is 
potentially dangerous and inefficient. The commercial industry 
performing this specialized function has done so for over 40 
years.
    It is U.S. Forest policy that military aircraft are only 
utilized when all reasonably available civilian aircraft are 
being employed, with the exception of the National Guard, who 
can be mobilized by Governors to respond to wildfires within 
the boundaries of their individual States.
    The Federal agencies in the trenches are placed in a 
delicate position relative to this proposed legislation. They 
can't appear indifferent to the unsolicited attempts to aid 
them in their mission. However, we strongly believe that they 
would support the continuation of the polices that are already 
in place, and I believe you have already heard that today.
    Current procedures provide the flexibility to respond 
appropriately to increasing wildland fire requirements as 
experienced this fire season. Congress and the public need to 
know that the system is not broken or encumbered by outdated 
laws. The current NIFC procedures already allow activation of 
U.S. Air Force and Army National Guard, including reserve C-130 
aircraft.
    It is a matter of record that clear guidelines exist for 
the deployment of Department of Defense components to assist in 
forest and grassland firefighting emergencies. Determining that 
military aviation is necessary is not a protracted, time-
consuming process. Sufficient lead time exists under current 
procedures to determine whether resources are readily available 
and to mobilize commercial as well as military assets.
    During this fire season, NIFC has indicated to HAI that 
more than sufficient civilian tankers were available during the 
Hayman fire in Colorado. Even with the exemption proposed under 
H.R. 5102 and 5185, the military would not have automatically 
been called. NIFC currently has the tools and the statutory 
authority necessary to assign aerial assets to fight wildfires. 
Legislation is not required.
    If an isolated incident occurred wherein no commercial 
assets were available and military assets were not called upon, 
HAI believes NIFC can administratively address this issue. Our 
citizens need to know that they are receiving effective 
firefighting services by professional firefighters who have 
consistently demonstrated their courage and commitment to keep 
them and their property safe from wildfires. They also need to 
know that the brave men and women in the armed services and the 
National Guard will be available and trained to defend us from 
all enemies of our country and not have that essential mission 
diluted by unnecessary tasking.
    Thank you very much.
    [The prepared statement of Mr. Resavage follows:]

     Statement of Roy Resavage, President, Helicopter Association 
                             International

    Good morning Mr. Chairman, and Members of the Forests and Forest 
Health Subcommittee. I am honored to appear before you today and 
express the view of the Helicopter Association International (HAI) 
concerning two bills, HR 5102, The Wildfire Response Act of 2002, and 
HR 5185, the Wildfire Response Enhancement Act. I ask that you accept 
my written testimony into the official record.
    HAI is a not-for-profit, professional trade association of over 
1400 member organizations in the United States and throughout the 
world. Member companies include operators of civil helicopters, 
manufacturers, and peripheral industry supporters. Many of the members 
are small businessmen and women and many of them are engaged in 
firefighting. HAI's members safely operate more than 5,000 helicopters 
approximately two million hours each year.
    Mr. Chairman, I recognize your cosponsorship of HR 5102, introduced 
by your colleague, Mr. Hefley, a member of the full Committee. As you 
are aware, HR 5102 is an exception to the Economy Act requirement to 
allow activation of military resources for emergent situations such as 
wildland fires, thereby expediting the process by which the Secretary 
of the Interior and the Secretary of Agriculture may utilize military 
aircraft to fight wildfires. Helicopter Association International is 
concerned over authorization for the use of military aircraft and 
personnel of the Armed Forces to fight wildfires without first 
comparing the cost and convenience of procuring the same services from 
a commercial enterprise. While HAI recognizes language in the bill 
requiring Congressional notice of the use of the exception to the 
Economy Act and the reasons for the use of the exception, HAI is 
concerned that notice to Congress would be made after the fact and that 
the measure would facilitate the immediate call up of military 
resources at a higher cost when commercial resources were available to 
meet firefighting needs.
    HR 5185, introduced by Mr. Gallegly also of the full Committee, 
seeks to remove a restriction on the authority of the Secretaries of 
Agriculture and the Interior to enter into agreements with any federal 
agency to acquire goods and services directly related to improving or 
using the wildfire fighting capability of those agencies.
    The federal government's aerial firefighting function is more than 
adequately performed by a cost effective, professional industry within 
the United States consisting of private sector companies. At present, 
an excellent working relationship exists between the HAI Government 
Contracting Committee, HAI members, and the US Forest Service, The 
Forest Service's National Interagency Fire Center Contracting Unit, and 
the Office of Aircraft Services Contracting Unit. Protecting lives and 
the homes and assets of US citizens is of the utmost concern to HAI's 
government contracting committee members. However, any increase in 
National Guard aerial firefighting assets and the directing of their 
use as an initial response resulting from the passage of H.R. 5102 or 
H. R. 5185 would be in direct competition with private enterprise. 
Firefighting is not an inherently governmental function, nor a military 
mission. Current federal policy does not advocate competition between 
the federal and private sectors. Tax paying entities would be 
jeopardized by such competition with helicopter operators. The proposed 
legislation does not fix a system that is broken. Existing law permits 
federal goods and services to be used whenever, in the judgment of the 
federal agency head, the resources cannot be provided as conveniently 
or cheaply by commercial contract. This legislation does not improve on 
the existing law.
    When tax-funded government agencies enter into business in direct 
competition with commercial, tax-paying companies, it forces those 
companies, particularly in the case of small businesses, to reduce the 
size and scope of their operations, affecting employment and long-term 
survivability of the businesses. Conversely, government competition 
expands the size, scope and cost of government taking away the funding 
of legitimate government functions.
    The National Guard components are currently used in an adjunct role 
during severe wildfire conditions. However, supplying routine National 
Guard wildland firefighting aerial resources is not an appropriate role 
for military assets. Wildland firefighters require an identifiable and 
predictable fleet of aerial firefighting aircraft that are not subject 
to higher priority tasking. One need only look at the events of 
September 11th to see that the members of the National Guard may be 
called to duty elsewhere. In addition, scarce training dollars and 
assets could be better spent on other missions required by these 
National Guard units. To be part of an integrated firefighting team, 
all services of all participants must be available on a predictable and 
reliable basis.
    Aviators involved in wildland firefighting require specialized 
training and repetitive teaming with the entire firefighting community. 
Ad hoc participation in this high-risk environment by inexperienced 
pilots is potentially dangerous and inefficient. The commercial 
operators that perform this specialized function have done so for over 
40 years. According to data provided to HAI by the US Forest Service 
for the 2002 Fire Season, 554 Type I, II, and III helicopters 
participated in the ``Call When Needed'' firefighting program. 
Exclusive Use Type I and II helicopter contracts with the US Forest 
Service for 2002 totaled 38. It is US Forest Service policy that 
military aircraft are only utilized when all reasonably available 
civilian aircraft are being used with the exception of the National 
Guard who can be mobilized by the Governors of the individual states to 
respond to wildfires within the boundaries of their individual states.
    The principal mission of the National Interagency Coordination 
Center at the National Interagency Fire Center (NIFC) is the cost 
effective and timely coordination of land management agency emergency 
response for wildland fire. The National Interagency Mobilization Guide 
identifies standard procedures that guide the operations of multi-
agency logistical support activity throughout the coordination system.
    HAI strongly believes that this hearing today is an appropriate 
forum for the US Forest Service to advise Congress of how NIFC conducts 
business and ensures the deployment of the best-suited ground and air 
resources to a particular fire. Current procedures are effective in 
responding to increasing wildland fire requirements, as experienced 
this fire season. If additional aerial assets are required, a system is 
already in place to utilize Canadian commercial aircraft. In this 2002 
Fire Season none were activated. Congress and the public need to know 
that the system is not ``broken'' or encumbered with ``outdated'' laws. 
The current NIFC procedures already allow for activation of US Air 
Force National Guard and Reserve C-130 aircraft. These aircraft are 
equipped with the Modular Airborne Fire Fighting System (MAFFS) 
dispensing unit to meet peak periods of wildland firefighting activity 
when aerial firefighting requirements exceed existing commercial 
assets. Clear guidelines for the employment of Department Of Defense 
components to assist in forest and grassland fire emergencies exist. A 
request for MAFFS is initiated by the National Interagency Fire Center 
(NIFC) in consultation with the Director of Fire and Aviation 
Management after determining that all suitable commercial assets are 
committed to fires, initial attack, or cannot meet the time frame of 
the region needing assistance.
    This is not a protracted, time consuming process. Sufficient lead 
time exists under current procedures to determine whether resources are 
``readily available'' and mobilize commercial as well as military 
assets. Less return in mission effectiveness than could be realized 
using commercially contracted assets sometimes results when the MAFFs 
units are activated because of the high number of support personnel the 
military brings on scene. During this fire season, the National 
Interagency Fire Center has indicated to me that plenty of civilian 
tankers were available during the Hayman Fire in Colorado and that even 
if the exemption proposed under HR 5102 and HR 5185 had been in effect, 
the military would not have automatically been called.
    Commercial crews are more effective in a wide range of roles 
because their primary job is to fight fires. Their aircraft represent a 
known resource to the government firefighting agencies. Their equipment 
is the best available and is certified in accordance with strict 
federal standards of performance, providing firefighting services at 
the best value to the government.
    The National Interagency Fire Center currently has the tools and 
statutory authority necessary to assign aerial assets to fight 
wildfires. Legislation is not required. If an isolated incident 
occurred wherein there were no commercial assets available and military 
assets were not called upon, HAI believes that this can be addressed 
administratively within the NIFC. Our citizens need to know they are 
receiving effective firefighting services by professional firefighters 
who have demonstrated beyond a shadow of a doubt their courage and 
commitment to keep them safe from wildfires. They also need to know 
that the brave men and women in the Armed Services and National Guard 
will be available and trained to defend us against all enemies of our 
country, and not have that essential mission diluted by unneeded 
tasking. Thank you.
                                 ______
                                 
    Mr. Hayworth. We thank you for the testimony.
    We move to the question phase and I would defer to my 
friend from California for his questions.
    Mr. Gallegly. Thank you very, very much, Mr. Chairman.
    Mr. Resavage, I want to preface my remarks by saying that I 
certainly have no problem with for-profit organizations. It is 
a part of the American way, it is what keeps our economy going, 
and I think my record of 16 years here in voting for small 
business and things to help the small businessman is a public 
record that I am quite proud of.
    You seem to really want to emphasize the fact that your 
organization is a not-for-profit organization. Is that not 
correct?
    Mr. Resavage. Our organization is a not-for-profit 
organization.
    Mr. Gallegly. And your organization represents only 
individuals that are not-for-profit, or are you paid in your 
non-profit organization by people that are for-profit?
    Mr. Resavage. No, sir. As I stated, we represent operators, 
manufacturers, and all people involved in the peripheral 
helicopter industry. So those individuals certainly are making 
a profit, hopefully.
    Mr. Gallegly. And they pay your salary and operating costs 
as a non-profit from for-profit organizations?
    Mr. Resavage. That is correct, sir.
    Mr. Gallegly. And that is your interest and your purpose 
for lobbying, is that correct?
    Mr. Resavage. Our interest is representing our members, 
yes, sir.
    Mr. Gallegly. Which are, for all intents and purposes, for-
profit. This is just for the record.
    Mr. Resavage. Yes, sir.
    Mr. Gallegly. You tend to be a little deceiving that you 
are here strictly as a member of a non-profit organization. I 
just want to set the record straight on that.
    Mr. Resavage. Yes, sir.
    Mr. Gallegly. Thank you very much.
    Mr. Hamilton, you made a couple of statements relative to 
problems that took place this year with the couple tragic 
accidents. Many of us saw these over and over again on national 
television where wings were falling off of old--one was an old 
C-130 in California, San Bernardino, if my memory serves me 
correctly. As a result of that, it caused a time delay because 
many airplanes were grounded that might have similar problems. 
Is that not correct?
    Mr. Hamilton. That is correct, sir.
    Mr. Gallegly. How would you assess today's fleet of private 
aircraft as compared to 10 years ago or 1993, for instance? Are 
they better, are they worse, about the same, or is the fleet 
just pretty much across the board aging each year?
    Mr. Hamilton. Yes, sir, I would say it is about the same. 
As you are well aware, it is an aging fleet.
    Mr. Gallegly. It can't be about the same if the airplanes 
are 10 years older today than they were then. Or are the 
airplanes about the same age today and they just move up and--
    Mr. Hamilton. No, sir. What I meant to say was that we are 
using the same kind of aircraft, but, yes, they are older 
aircraft.
    Mr. Gallegly. So, basically, what you have today is the 
same fleet that you had 10 years ago, only with 10 years more 
service on them?
    Mr. Hamilton. That is correct.
    Mr. Gallegly. Would it be safe to say that it is unlikely 
that the air frames are more stable or even as stable today as 
they would have been 10 years ago?
    Mr. Hamilton. Well, that is why we are waiting to see what 
kind of report we are going to get from the investigations that 
are being done on the aircraft that went down. So we are 
waiting to see whether that is going to end up being a metal 
fatigue kind of problem or if there is some other kind of 
problem.
    Mr. Gallegly. Across the board, how would you compare 
today's private fleet of aircraft with the C-130J models with 
the new MAFFS units that are on line?
    Mr. Hamilton. Well, the C-130Js are a much later model than 
the C-130As that we had a problem with this year. The 
difference in aircraft delivery is that the air tankers that we 
use that are World War II-vintage type aircraft do a better job 
in coverage and flying in rougher terrain because they drop 
from their belly, versus a modular airborne firefighting unit 
that slides into C-130's that have two pipes that come out the 
end and don't get as good coverage and can't fly in as rough 
terrain. So there is a difference in the delivery system.
    Mr. Gallegly. For the record, are you familiar with the new 
MAFFS unit and the new technology that is in the process of 
being delivered, at least to 13 units that I know of in the 
146?
    Mr. Hamilton. Yes, sir, and that is still being tested.
    Mr. Gallegly. Is that the unit that are referring to or are 
you referring to the obsolete MAFFS units that have been used 
for many years?
    Mr. Hamilton. I was referring to the obsolete units, sir.
    Mr. Gallegly. OK, but you are aware that we have 13 new 
units that are in the process of being readied as we speak?
    Mr. Hamilton. Being tested, yes, sir.
    Mr. Gallegly. Now, would you say that that technology is 
still inferior to the technology of the belly drops of the 
World War II DC-3s or whatever you are using?
    Mr. Hamilton. I think that remains to be seen, sir, but 
some of the preliminary information we have got is since they 
eject the retardant out the side of the aircraft that there may 
be some problems when they do drop because it has a tendency to 
move the tail of the aircraft to the left or the right. And 
when you are flying low in the situations that we are, that is 
a concern.
    Mr. Gallegly. I think your reference was that you believe 
that the current flexibility is sufficient to handle all 
emergencies as it relates to deployment. Are you familiar with 
the 1993 fire in my district, in Southern California, that went 
all the way from Ventura to Malibu and destroyed countless 
homes? Are you familiar with that fire?
    Mr. Hamilton. Yes, sir, I am.
    Mr. Gallegly. Are you familiar with the fact that we had C-
130's sitting on the tarmac watching property burn less than 2 
miles from the airport, with the personnel sitting in the 
cockpits all ready to go and they could not rotate?
    Mr. Hamilton. No, sir, I am not familiar with that.
    Mr. Gallegly. You are not familiar with that. I would 
submit to you that I think that would be a very, very good 
thing to go back and review because it was very frustrating, 
because it was 24 hours on two different occasions in that week 
while thousands and thousands of acres burned and communities 
were destroyed. And we had firefighting equipment sitting on 
the tarmac ready that could not be deployed because of this, as 
I referred to, arcane statute. I would appeal to you to go back 
and review that, and I could cite you other similar incidents.
    With that situation taking place, would you say that the 
flexibility was sufficient, given the bureaucratic foul-up at 
that time, if, in fact, what I am telling you is correct?
    Mr. Hamilton. Well, I have no reason to doubt that it is 
absolutely correct, sir. I think the concern is that we need to 
do a better job of planning and pre-positioning. And using this 
year's example, which I am very familiar with, we could have 
probably done a better job of deploying our resources.
    But this fire season came very early and we had multiple 
fires in different geographic areas, and we have a severity 
funding process where we can actually pre-position aircraft and 
if we did a better job of predicting where we are going to have 
problems, then what we would be able to do is have commercial 
aircraft deployed and that would give us access to military 
aircraft.
    Mr. Gallegly. Mr. Chairman, I just have one additional 
question. Actually, I have many more, but in view of the time, 
and so on, I would like to submit some questions after this 
final question for the record to all of the witnesses that we 
could perhaps make a part of the record for the future.
    The issue before us has to do not with competition. The 
issue before us has to do with the issue of flexibility. Do you 
not have confidence in the Department of Agriculture and the 
Department of the Interior in making a decision and having some 
added flexibility in there in the case of an emergency?
    You say need help in pre-positioning, and so on and so 
forth, and if there was ever a classic example this year of 
being over-tasked or the demands on everyone being tested to 
the end of lengths of their ability,--what would be wrong with 
giving added flexibility so that we don't have the foul-ups of 
having air tankers, C-130's--in my estimation, very fine 
firefighting equipment, particularly the J models with new 
MAFFS units--sitting on a tarmac as Rome burns and not being 
able to be deployed?
    What would be wrong with having added flexibility so that 
that situation not be repeated? What would be wrong with that?
    Mr. Hamilton. I don't think there would be anything wrong 
with that, sir.
    Mr. Gallegly. That is what this bill is all about, what it 
represents, and what you testified that you oppose.
    Mr. Hamilton. Well, that is because I think we have the 
existing capability to do what you describe. We just haven't 
done it very well or as well as we need to do it.
    Mr. Gallegly. I think you made my case. Thank you very 
much.
    Mr. Hayworth. I thank the gentleman from California for his 
questions.
    The Chair would just address a couple of questions to Mr. 
Thompson.
    Mr. Thompson, it is my understanding that currently you 
have 18 lead planes. What is the age of those aircraft?
    Mr. Thompson. Let me have Mr. Williams answer that. I could 
guess, but I think he could give you a better answer.
    Mr. Hayworth. That is fine, Tom, and we thank you, Jerry, 
for coming down today and we appreciate your answer.
    Mr. Williams. They vary in age, but roughly 20 years old.
    Mr. Hayworth. So the average age is basically 20 years?
    Mr. Williams. That is approximately right.
    Mr. Hayworth. Do you know when they will be replaced and by 
what types of aircraft do you expect to have the replacements?
    Mr. Williams. We are not sure yet. Again, we are waiting 
for the findings of this blue ribbon panel to give us some 
ideas on what strategic directions we head.
    I think it is important in this debate to put some of this 
in context. The air tankers that we use, 44 altogether--and 
those are the ones that require lead planes--make up a 
relatively small portion of the overall aviation force. With 
100 exclusive-use helicopters, another 300 ``call when needed'' 
helicopters, and 54 single-engine air tankers, the emphasis for 
us is on rapid initial attack.
    Mr. Hayworth. I kind of draw an image analogous, although 
it is perhaps somewhat inaccurate--I think about tugboats 
pulling and pushing larger ships out, and I think, in a sense, 
the lead planes basically have to serve that through the 
wildlife/urban interface there as you are dealing with getting 
the planes in position to dump the water, to dump the fuel 
retardant. These things are essential to your operation.
    Mr. Williams. That is correct. With the heavy-capacity air 
tankers, they are. And, in fact, under some circumstances, not 
all, but under some circumstances lead planes are required to 
lead air tankers in.
    Mr. Hayworth. I know my friend from California said he 
wanted to put some questions in writing, but I would gladly 
defer if he has any more at this juncture.
    Mr. Gallegly. I appreciate the Chairman. I do have one 
question for Mr. Williams as a result of one of the answers 
that he gave you, Mr. Chairman.
    You say that the aviation fleet on an overall basis would 
be 20 years or newer, or an average of 20 years?
    Mr. Williams. Speaking directly to lead planes.
    Mr. Gallegly. Could you tell me, of the two tragedies that 
we suffered this year, what the age of the aircraft were that 
went down?
    Mr. Williams. They were much older, but those were not lead 
planes. They were air tankers, and I believe both of them were 
something like 50 years.
    Mr. Gallegly. So the two that we lost with life were 
approximately 50 years old.
    Now, could you explain to me the difference in lead planes 
and the tankers that went in, because they are still out there 
flying?
    Mr. Williams. A lead plane is a much smaller aircraft for 
us. It is a Baron or a King Air. Those are generally in the 
commercial world two-engine. They would haul six passengers in 
a commercial world.
    Mr. Gallegly. But these are not the aircraft that are doing 
the aerial drops.
    Mr. Williams. No.
    Mr. Gallegly. What we are talking about here really, 
principally, are the aircraft that are doing aerial drops.
    Mr. Williams. That is correct.
    Mr. Gallegly. Now, what would be the average age of the 
aircraft where we put firefighters in them and go out with 
whatever the retardant is and do the drops? What is the average 
age of that aircraft?
    Mr. Williams. I believe that the air tanker fleet, 
exclusive of smoke-jumper aircraft and all the rest, is 
somewhere in the neighborhood of 46 years old.
    Mr. Gallegly. OK, fine, and I think it is important for the 
record because this is really the aircraft we are talking about 
here. It is not the lead planes or the spotter planes or the 
surveillance planes. It is the one where we are putting 
firefighters in harm's way out protecting life and property.
    And you would say for the record that that fleet is not an 
average of 20, but an average of 45 to 50?
    Mr. Williams. That is correct.
    Mr. Gallegly. I thank the gentleman.
    Thank you, Mr. Chairman.
    Mr. Hayworth. I thank the gentleman from California and our 
witnesses today. I think this has been a very useful hearing as 
we have reviewed these respective pieces of legislation.
    As I thank the witnesses on our second panel for their 
insights, as well as the Members for their questions, we want 
to again recognize that Members may have some additional 
questions for the witnesses. Indeed, my friend from California 
has made that point, and we would ask again that you would 
please respond to these in writing. Our hearing record will be 
open for 10 days for those responses.
    On behalf of Chairman McInnis and the Subcommittee members, 
I would like to take this time to thank Meredith Webster, the 
Subcommittee's Forest Service Fellow, for all her hard work 
during the past year. Meredith, we wish you well.
    I would also like to thank James Swenson, our 
Subcommittee's intern, for all the work he has done on H.R. 
5102 and H.R. 5185. We know he will go on to great future 
endeavors.
    If there is no further business before the Subcommittee, I 
again thank the panelists and our Subcommittee members, and the 
Subcommittee is now adjourned.
    [Whereupon, at 2 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
